<html>
<title> - THE D.C. OPPORTUNITY SCHOLARSHIP PROGRAM: PRESERVING SCHOOL CHOICE FOR ALL</title>
<body><pre>[Senate Hearing 111-814]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-814

THE D.C. OPPORTUNITY SCHOLARSHIP PROGRAM: PRESERVING SCHOOL CHOICE FOR 
                                  ALL

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs







<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                      U.S. GOVERNMENT PRINTING OFFICE
  51-027 PDF               WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>  












        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
            Deborah P. Parkinson, Professional Staff Member
  Rachel R. Sotsky, Legislative Assistant, Office of Senator Lieberman
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
         Amanda Wood, Minority Director of Governmental Affairs
    Nikki McKinney, Legislative Assistant, Office of Senator Collins
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk














                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     6
    Senator Voinovich............................................    16
    Senator Burris...............................................    19
    Senator Ensign...............................................    21
    Senator Akaka................................................    41

                               WITNESSES
                        Wednesday, May 13, 2009

Latasha Bennett, Parent, Naylor Road School......................     9
Tiffany Dunston, Former Student, Archbishop Carroll High School..    11
Ronald Holassie, Student, Archbishop Carroll High School.........    13
Hon. Anthony A. Williams, Former Mayor of the District of 
  Columbia.......................................................    24
Bruce B. Stewart, Head of School, Sidwell Friends School.........    27
Patrick J. Wolf, Ph.D., Principal Investigator, Institute of 
  Education Sciences Study, College of Education and Health 
  Professions, University of Arkansas............................    31

                     Alphabetical List of Witnesses

Bennett, Latasha:
    Testimony....................................................     9
    Prepared statement...........................................    47
Dunston, Tiffany:
    Testimony....................................................    11
    Prepared statement...........................................    50
Holassie, Ronald:
    Testimony....................................................    13
    Prepared statement...........................................    52
Stewart, Bruce B.:
    Testimony....................................................    27
    Prepared statement...........................................    59
Williams, Hon. Anthony A.:
    Testimony....................................................    24
    Prepared statement...........................................    54
Wolf, Patrick J., Ph.D.:
    Testimony....................................................    31
    Prepared statement with attached charts......................    66

                                APPENDIX

Prepared statements submitted for the Record from:
    American Association of School Administrators................    80
    American Association of University Women.....................    81
    Association of Christian Schools International...............    86
    American Federation of Teachers..............................    88
    Americans United for Separation of Church and State..........    92
    Hon. Eleanor Holmes Norton, Delegate, U.S. House of 
      Representatives............................................    96
    Hon. Adrian M. Fenty, Mayor, District of Columbia............    98
    Institute for Educational Initiatives........................    99
    National Coalition for Public Education......................   179
    National Education Association...............................   187
    Religious Organizations Oppose Further Reauthorization of 
      Washington, DC, Voucher Program............................   198
    Secular Coalition for America................................   200
Responses to post-hearing questions for the Record from:
    Ms. Bennett..................................................   203
    Mr. Holassie.................................................   204
    Mr. Wolf.....................................................   206

 
                    THE D.C. OPPORTUNITY SCHOLARSHIP
                   PROGRAM: PRESERVING SCHOOL CHOICE
                                FOR ALL

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Burris, Bennet, 
Collins, Voinovich, and Ensign.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning, and welcome to this 
hearing of the Senate Committee on Homeland Security and 
Governmental Affairs. We are this morning considering the 
``D.C. Opportunity Scholarship Program: Preserving School 
Choice For All,'' is the way we describe it. Good morning to 
everybody and thanks to the witnesses for being here.
    It struck me as I walked over here that this is a program 
in the multi-trillion dollar Federal budget that is really very 
small in dollar numbers. But it arouses large interest, and I 
think it raises big hopes in the hearts and minds of the 
parents and the children who are involved in that program. And 
it is in that spirit that we hold this hearing today.
    I want to first answer the question about why this 
Committee is holding the hearing because it may not be 
immediately obvious. It is not because Senator Collins and I 
happen to support the D.C. Opportunity Scholarship Program 
(OSP). It is because, first, the Homeland Security and 
Governmental Affairs Committee has historically had 
jurisdiction over matters related to the District of Columbia. 
So, for instance, earlier this year, we reported out the bill 
that would give District residents for the first time a voting 
representative in the House of Representatives. This afternoon, 
the Committee is holding hearings on the President's nomination 
of two people to be on the Superior Court of the District of 
Columbia. So this happens to be the D.C. related committee.
    Second, during the vote on the D.C. House Voting Rights 
Act, a few senators submitted legislation to continue the 
authorization of the D.C. Opportunity Scholarship Program for a 
period of years. This promised to put the bill into gridlock 
and give everybody a difficult choice to make. And a compromise 
was worked out in which the majority leader, Senator Reid, said 
that if those of us who had offered the amendment would 
withdraw it at this time, he would pledge that he would give 
floor time to a consideration of a measure reauthorizing the 
D.C. Opportunity Scholarship Program sometime this spring or, 
at the latest, early summer. And as part of that, I pledged, 
with Senator Collins' consent and agreement, to hold the 
hearing that we are holding today. So that is why we are here.
    The second thing I want to say at the outset is that though 
I support this program and have from the beginning, and Senator 
Collins does as well, we have wanted this hearing to be a fair 
and open consideration of the pros and cons of the D.C. 
Opportunity Scholarship Program. We wanted, if you will, to 
hear from advocates and opponents, from both sides.
    I do want to state for the record, and I think it bears 
noting, that we invited no less than six witnesses who are 
opposed to the reauthorization of this program to come and 
testify, and not a single one accepted our invitation. So I say 
that with regret because I wanted to hear both sides. We will 
hear from the principal investigator of the firm that the 
Department of Education chose to do an independent evaluation 
of this program, and he comes, as far as I know, with no 
particular bias. And so, in that sense, we will have some 
additional representation.
    Now, let me just go to the history of the program to remind 
us all how we got to where we are.
    The D.C. Opportunity Scholarship Program was authorized in 
the District of Columbia School Choice Incentive Act of 2003 
and was passed by Congress in January 2004 as part of the 
Consolidated Appropriations Act of that year. The Act provided 
new funding--and this is very important--in equal parts for 
three recipients: The District of Columbia Public Schools--this 
was new funding for the D.C. Public Schools as part of an 
agreement. It was not previous funding. Second, funding went to 
the charter schools in the District; and, third, the D.C. 
Opportunity Scholarship was funded.
    There were findings in that law that Congress adopted, and 
it was signed by the President, that state that, ``Available 
educational alternatives to the public schools are 
insufficient''--in other words, Congress made that finding--
``and more educational options are needed. In particular, funds 
are needed to assist low-income parents to exercise choice 
among enhanced public opportunities and private education 
environments.''
    So the purpose of this program, the OSP, is to provide low-
income parents residing in our Nation's capital, particularly 
parents of students who attend elementary or secondary schools 
that have been identified as needing improvement, corrective 
action, or restructuring, with expanded opportunities for 
enrolling their children in private schools in the District.
    The Act directed the Secretary of Education of the United 
States to award a grant for up to 5 years to an eligible entity 
to operate the scholarship program, and it was the Washington 
Scholarship Fund that was chosen as the first grantee of the 
program.
    As many here know, under the program, annual scholarships 
of up to $7,500 per child are awarded to children from low-
income families to attend private schools in the District. 
Funds appropriated for the program have been sufficient to 
support between 1,613 and 2,000 students annually.
    As I suggested a moment ago, the Act mandated that an 
independent evaluation of the program be conducted to assess 
academic and non-academic outcomes, using the strongest 
possible research design for determining how effective the 
program has been. And that is when the Department of Education 
contracted with the Institute for Educational Sciences, whose 
principal investigator we will hear from this morning.
    The most recent results, which were released on April 3 of 
this year, found that the program produced a statistically 
significant positive impact on reading, on parental 
satisfaction, and on parental confidence about school safety. 
Before that report came out, notwithstanding the fact that it 
had not come out, in the Omnibus Appropriations Act of 2009 
adopted on March 11, 2009, an amendment was inserted that 
prohibits the Department of Education from admitting new 
applicants to the program beyond the coming school year. And, 
in fact, on April 9, letters were sent to the 630 students that 
had applied for vouchers for this September, including the 182 
children who had already been informed that they would receive 
a scholarship, that the program was going to end.
    On May 6, just last week, President Obama announced that he 
would support a proposal to allow current students to remain in 
the program through graduation but that no new students would 
be accepted to the program. That, I suppose, is a step forward, 
but with all due respect, in my opinion, it is simply not 
enough. If the Opportunity Scholarship Program is not working, 
it should be terminated for all children. If it is working well 
enough to be continued for those children currently in the 
program until they graduate from school, then it should also be 
continued for succeeding generations of new students.
    The question I think to be asked of the Opportunity 
Scholarship Program, and any school program, should be whether 
it works, whether it improves the educational performance of 
the students involved. That is not a Democratic or a Republican 
question. It is not even an Independent question. It is not a 
liberal or a conservative question. It is a factual question 
based on factual information, including professional 
evaluations and test scores.
    When I apply that non-ideological, non-partisan standard to 
the District of Columbia Opportunity Scholarship Program, my 
conclusion is that it works. It certainly works well enough to 
keep it going for new students. And I base that conclusion on 
the report of the independent evaluator, Patrick Wolf, who we 
will hear from today, who will tell us that under the most 
rigorous study design, this program is generating statistically 
significant educational achievement.
    That is no small accomplishment because most experimental 
or innovative education programs, supported either by the 
Federal Government, State governments, or private 
philanthropies, do not show statistically significant results. 
In fact, of the 11 programs studied under similarly rigorous 
procedures to those applied to the D.C. OSP, only 3 of 11 
showed statistically significant results. So the analysis of 
the D.C. OSP stands out in sharp relief from the others as a 
successful educational reform program, and certainly one that 
should be continued.
    Those who can afford to send their children to private 
schools, when they are dissatisfied with the public schools to 
which their children would otherwise go, do so for obvious 
reasons, to provide their children with the best education 
available. They do so as good parents who care about their 
children's future.
    Why should we deny that opportunity to lower-income parents 
who want the best education and future for their children, too? 
In America, it should not be a privilege for any of our 
children to get a first-rate education. It should be, and in my 
opinion really is, a right, though it is a right that is too 
often not honored, particularly for our poorest children. 
Without a quality education for all, there cannot be equality 
for all, the kind of equality that our founding documents 
promise for all.
    Finally, I am going to go back to one of my political 
heroes, former senator and former vice president, Hubert 
Humphrey, who once said that the moral test of government is 
how that government treats those who are in the dawn of life, 
the children; those who are in the twilight of life, the 
elderly; and those who are in the shadows of life, the sick, 
the needy, and the handicapped.
    In the District of Columbia today, with regard to this 
program, we must not allow the twilight to fall prematurely on 
a program that is clearly serving those in the dawn of life. 
And we cannot allow the shadows to fall on the dreams nurtured 
by that program in the children and parents who are today part 
of it. So I look forward to an informative and productive 
discussion this morning.
    Senator Collins.
    [The prepared statement of Senator Lieberman follows:]
                PREPARED STATEMENT OF SENATOR LIEBERMAN
    Good morning and welcome to this hearing of the Senate's Homeland 
Security and Governmental Affairs Committee. This morning we are 
considering the ``District of Columbia Opportunity Scholarship Program: 
Preserving School Choice for All,'' as we describe it. It struck me as 
I walked over here that this is a program in the multi-trillion dollar 
Federal budget that is small in dollar numbers but it arouses large 
interest, and I think it raises big hopes in the hearts and minds of 
the parents and the children who are involved in that program, and it's 
in that spirit that we hold this hearing today.
    I want to first answer the question, why is this Committee holding 
the hearing, because it may not be entirely obvious. It's not because 
Senator Collins and I happen to support the District of Columbia's 
Opportunity Scholarship Program (OSP), although we do. It's because 
first, the Homeland Security and Governmental Affairs Committee has had 
jurisdiction over matters related to the District of Columbia. So for 
instance, earlier this year we reported out the bill that would give 
District residents for the first time voting representation in the 
House of Representatives. Later this afternoon, the Committee is 
holding hearings on the President's nomination of two people to be on 
the Superior Court of the District of Columbia. So, this happens to be 
the D.C. related committee.
    Secondly, during the vote on the District of Columbia's Voting 
Rights Bill, a few senators submitted legislation to continue the 
authorization of the Opportunity Scholarship Program for a period of 
years. This promised to put the bill into gridlock and give everyone a 
difficult choice to make. A compromise was worked out in which the 
Majority Leader, Senator Reid, said that if those who had offered the 
amendment would withdraw it at this time, he would pledge to give floor 
time to the consideration of the Opportunity Scholarship Program this 
spring, at the latest early summer. I pledged, with Senator Collins' 
consent and agreement, to hold this hearing, the hearing we are holding 
today, that's why we're here.
    The third thing I want to say at the outset is that, although I 
have supported this program right from the beginning, and Senator 
Collins does as well, we wanted this hearing to be fair--a fair and 
open consideration of the pros and cons of the District of Columbia 
Opportunity Scholarship Program. We wanted to be able to hear from 
advocates and opponents of the Opportunity Scholarship Program. I do 
want to state for the record that we invited no less than six witnesses 
to come and testify about their alternative perspectives on this 
program and not a single one accepted our invitation. I say that with 
regret, because I wanted to hear both sides.
    We will hear from the principle investigator from the firm that the 
Department of Education chose to do an independent evaluation of this 
program, and he comes with, as far as I know, no particular bias.
    Now let me just go to the history of the program, to tell us all 
how we got to where we are. The D.C. Opportunity Scholarship Program 
was authorized by the District of Columbia School Choice Incentive Act 
of 2003, passed by Congress in January 2004 as part of the Consolidated 
Appropriations Act of 2004, Public Law 108-199 (Title III of Division C 
of the Act). The Act provided new funding, in equal parts, for D.C. 
public schools, charter schools, and scholarships. The findings under 
the law state that ``available educational alternatives to the public 
schools are insufficient, and more educational options are needed. In 
particular, funds are needed to assist low-income parents to exercise 
choice among enhanced public opportunities and private education 
environments.''
    The purpose of the OSP program is to provide low-income parents 
residing in the District, particularly parents of students who attend 
elementary or secondary schools identified for improvement, corrective 
action, or restructuring, with expanded opportunities for enrolling 
their children in private schools in the District. The Act directed the 
Secretary of Education to award a grant for up to five years to an 
eligible entity to operate the program. The Washington Scholarship Fund 
(WSF) was chosen as the first grantee of the program. Under the OSP 
annual scholarships of up to $7,500 per child are awarded to children 
from low-income families to attend private schools in the District.
    Funds appropriated for the program have been sufficient to support 
between 1,613 and 2000 students. The Act also mandated that an 
independent evaluation of the program be conducted to assess academic 
and non-academic outcomes, using the strongest possible research design 
for determining program effectiveness. The study was conducted by 
contract for the Institute of Education Sciences (IES). The most recent 
IES study was released April 3, 2009, and found that the program 
produced a statistically significant positive impact on reading. The 
study also found that for parents, the program had a positive impact 
overall on school satisfaction and perceptions of school safety.
    The Omnibus Appropriations Act of 2009, which became Public Law 
111-8 on March 11, 2009, included funds for the OSP program for the 
2009-2010 school year. The Omnibus bill also imposed certain 
requirements on the OSP program, and included a proviso stating that no 
funds after that school year would be available for the OSP program 
unless a reauthorization bill is passed by Congress, and there is 
legislation from the District of Columbia approving such 
reauthorization. Thereafter, the Department of Education decided that 
no new applicants could be accepted for the 2009-2010 school year, and 
on April 9, letters were sent to the 630 students that had applied for 
vouchers for this September, including the 182 children who had already 
been informed that they would receive a scholarship, that the program 
was going to end. On May 6, 2009, President Obama announced that he 
would support a proposal to allow current students to remain in the 
program through graduation, but not new students.
    That I suppose is a step forward, but with all due respect, in my 
opinion, it's simply not enough. If the Opportunity Scholarship Program 
is not working, it should be terminated for all children. If it is 
working well enough for the children who are continuing in the program 
until they graduate from school, then it should also be continued for 
new generations of students.
    The question I think to be asked of the OSP program and any school 
program should be whether it works, whether it improves the educational 
performance of the students involved? That's not a Democratic or 
Republican question, or even an Independent question. It's not a 
liberal or conservative question. It is a factual question based on 
factual information including professional evaluations and test scores.
    For the D.C. Opportunity Scholarship Program, my conclusion is that 
it works. It certainly works well enough to keep it going for new 
students. I've based that conclusion on the report of the independent 
evaluator, Patrick Wolf, who we'll hear from today to tell us that 
under the most rigorous studies this program is generating 
statistically effective educational achievement, and that's no small 
accomplishment. Most experimental or innovative education programs 
funded by the Federal Government, state government, or private 
philanthropies do not show statistically significant results. In fact, 
of the 11 programs studied under similarly rigorous procedures to those 
applied to the D.C. Opportunity Scholarship Program, only three of 11 
showed statistically significant results. So the analysis of the D.C. 
Opportunity Scholarship Program stands out in sharp relief. It's a 
successful educational reform program and certainly one that should be 
continued.
    Those who can afford to send their children to private schools when 
they are dissatisfied with the public schools their children would 
otherwise go to, do so for obvious reasons: to provide their children 
with the best education available. They do so as good parents who care 
about their children's future. Why should we deny that opportunity to 
lower income parents who also want the best future for their children?
    In America it should not be a privilege for any of our children to 
get a first rate education. In my opinion it is a right, although often 
a right that is not honored. Without an equal education for all there 
cannot be equality for all, the kind of equality that our founding 
documents promised.
    I'm going to go back to one of my political heroes, former Vice 
President Hubert Humphrey, who observed that the ``moral test of 
government is how that government treats those who are in the dawn of 
life, the children; those who are in the twilight of life, the elderly; 
and those who are in the shadows of life, the sick, the needy and the 
handicapped.''
    In D.C. today, we must not allow the twilight to fall on a program 
that is clearly serving those in the dawn of life. And we cannot allow 
the shadows to fall on the dreams that nurtured that program in the 
children and parents who are today a part of it.
    I look forward to an informative and productive discussion. Senator 
Collins?

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Mr. Chairman, first let me thank you for 
convening this hearing today and also for your very eloquent 
statement, which sums up why we are here today.
    This Committee has convened to consider the merits of 
extending a program that has provided additional educational 
options for some of our Nation's most at-risk children. Sadly, 
the District's public schools continue to underperform despite 
an expenditure per pupil rate that is the third highest in the 
Nation. Experts have carefully studied the D.C. Opportunity 
Scholarship Program and have concluded that the educational 
success of the program's participants in reading has outpaced 
those in the District's public schools.
    The personal success stories that we will hear today help 
us put a face on what is really happening. A lot of times in 
the Senate, we debate budget amounts, we look at statistics and 
studies, but we do not always hear the personal stories of 
those who are affected by the policy decisions that we make. 
And that is why I so look forward to hearing the testimony of 
our two students today.
    I also look forward to hearing the testimony of a mother 
whose son is a second grader who has been able to take 
advantage of this program, but whose daughter apparently will 
be denied the opportunity to follow in her brother's footsteps. 
These stories help us understand the real world implications of 
cutting off this promising program.
    As the Chairman has indicated, more than 5 years ago, 
leaders in the District of Columbia, including the former 
mayor, whom I see today in the audience, worked with Congress 
to design a three-sector strategy that provided new funding for 
D.C.'s public schools, public charter schools, and other 
educational opportunities for the children of the District.
    The D.C. Opportunity Scholarship Program provides federally 
funded scholarships that have enabled low-income students from 
the public school system to attend a private school of their 
choice. For many of these students, this has been their first 
and their only opportunity to access a private education that 
previously was available only to the children of wealthier 
families.
    The program's popularity is illustrated by the long line of 
parents waiting to enroll their children. Since its inception, 
more than 7,000 students have applied for scholarships, far 
more than the program can accommodate. That should tell us 
something. That, too, is an indication of the desirability of 
this program.
    I would note that the President's fiscal year 2010 budget 
provides $74 million to the District's public schools. Of that 
amount, $42 million is to improve the public schools; $20 
million is to support the public charter schools; and $12 
million is for the Opportunity Scholarship Program. 
Unfortunately, that $12 million, as the Chairman has pointed 
out, would only allow those currently enrolled students to 
continue in the program. No new students would be permitted, 
despite the fact that the breakdown clearly indicates that the 
additional Federal funds are not diverting money from the 
public schools. Moreover, the $7,500 per student cost for the 
scholarship children compares very favorably to the $15,511 per 
student cost for the public schools.
    The stories that we have heard from the parents and the 
students participating in this program, as well as the 
testimony that we will hear from the experts today, should 
guide our decisionmaking. We will hear from the University of 
Arkansas researchers on their study, which showed that parents 
are overwhelmingly satisfied with their children's experience 
in this program.
    In March, the Department of Education released its 
evaluation of the program's impact after 3 years. It showed 
that the students offered scholarships experienced improvements 
in reading that were equal to more than 3 months of additional 
schooling. Similar progress has not yet, however, been realized 
in math. I would like to learn more about that. Nevertheless, 
it is clear that if Congress were to discontinue funding for 
the Opportunity Scholarship Program, it is estimated that 86 
percent of the students would be reassigned to schools that do 
not meet ``adequate yearly progress'' goals in reading and 
math. How can we allow that to happen?
    I do also want to expand on what the Chairman said. Our 
goal is to look at the facts and success or the problems with 
this program in an impartial, factually based way. And we 
extended several invitations to individuals who have 
reservations about the program. We invited, for example, the 
Mayor, and I wish he were here today so that we could hear his 
recommendations and explore his views. We invited the National 
Education Association, which declined the opportunity to attend 
this hearing. It is very unfortunate that they have chosen not 
to participate since we would have welcomed their views. 
Nevertheless, I look forward to hearing the testimony of our 
witnesses who know firsthand the difference that this program 
has made in their own lives.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Collins follows:]
                 PREPARED STATEMENT OF SENATOR COLLINS
    Today's hearing on the D.C. Opportunity Scholarship Program allows 
the Committee to consider the merits of a program that has provided 
additional educational options for some of our Nation's most at-risk 
children.
    Sadly, D.C.'s public schools continue to underperform despite an 
expenditure per pupil rate that is the third-highest in the Nation. 
Experts have carefully studied the D.C. Opportunity Scholarship Program 
and concluded that the educational success of the program's 
participants in reading has outpaced those in the D.C. public schools.
    The personal success stories that we will hear today of Tiffany 
Dunston, a freshman at Syracuse University and last year's 
valedictorian of Archbishop Carroll High School, and Ronald Holassie, a 
sophomore at Archbishop Carroll High School and D.C. Deputy Youth Mayor 
for legislative affairs, are testament to this program's achievements. 
LaTasha Bennett, whose son is a second grader at Naylor Road School, 
but whose daughter apparently will be denied the opportunity to follow 
in her brother's footsteps, will help us understand the real world 
implications of discontinuing the program.
    More than 5 years ago, leaders in the District of Columbia, working 
with Congress, designed a ``three-sector'' strategy that provided new 
funding for public schools, public charter schools, and educational 
options for needy children. The D.C. Opportunity Scholarship Program 
provides federally funded scholarships that have enabled low-income 
students from the public school system to attend a private school of 
their choice. For many of these students, this was their first and only 
opportunity to access a private education that previously was available 
only to the children of wealthier families.
    The program's popularity is illustrated by the long line of parents 
waiting to enroll their children. Since its inception, more than 7,000 
students have applied for scholarships.
    Of the $74 million for D.C. public schools in the President's 
fiscal year 2010 budget, $42 million is to improve the District's 
public schools, $20 million is to support D.C. public charter schools, 
and $12 million is for the D.C. Opportunity Scholarship Program. 
Unfortunately, the $12 million provided for the D.C. Opportunity 
Scholarship Program would only allow currently enrolled students to 
remain in the program. No new students would be permitted, despite the 
fact that the $7,500 per student cost for scholarship children compares 
favorably to the $15,511 per student cost for public schools.
    The stories we've heard from parents and students participating in 
the program, as well as the testimony we will hear from our panel 
today, parallels what we've learned from recent independent studies 
conducted by the University of Arkansas and the Institute of Education 
Sciences at the U.S. Department of Education.
    In December 2009, University of Arkansas researchers released the 
findings of a new evaluation entitled ``Family Reflections on the 
District of Columbia Opportunity Scholarship Program.'' The study 
showed that parents were overwhelmingly satisfied with their children's 
experience in the program.
    In March 2009, the Department of Education released its evaluation 
of the program's impact after 3 years. This report showed that students 
offered scholarships experienced improvements in reading that were 
equal to more than 3 months of additional schooling, while parents were 
increasingly satisfied with the quality and safety of their children's 
schools. Similar progress has not yet been realized in math, however.
    Nevertheless, if Congress were to discontinue funding for the D.C. 
Opportunity Scholarship Program, it is estimated that 86 percent of the 
students would be reassigned to schools that do not meet ``adequate 
yearly progress'' goals in reading and math. We should not allow that 
to happen.
    Despite invitations to testify before the Committee, Mayor Adrian 
Fenty and the National Education Association declined the opportunity 
to attend this hearing and express their thoughts on the D.C. 
Opportunity Scholarship Program. It is unfortunate that they have 
chosen not to participate since we would have welcomed their views.
    I look forward to hearing the testimony of our witnesses who know 
first-hand what a positive difference the D.C. Opportunity Scholarship 
Program has made in their lives.

    Chairman Lieberman. Thank you, Senator Collins, for that 
excellent statement. Thanks for your commitment to both this 
program and to a fair consideration of it.
    We are going to go right to the witnesses. Sometime before 
long, unfortunately, we are probably going to be called for a 
vote on the Senate floor. We will go over quickly and come 
back, so we may have to recess. But we are very honored to have 
this first panel of a parent and two students, including a 
former student in the program. So let us begin with Latasha 
Bennett, a parent from the Naylor Road School.
    Ms. Bennett, thanks so much for being here today.

  TESTIMONY OF LATASHA BENNETT,\1\ PARENT, NAYLOR ROAD SCHOOL

    Ms. Bennett. Thank you. Good morning, Mr. Chairman, Senator 
Collins, Members of the Committee, and fellow citizens. Thank 
you for inviting me to share my views on the Opportunity 
Scholarship Program and its impacts on my family and my child.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bennett appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    My name is Latasha Bennett. I am a 37-year-old single 
parent of two intelligent children, my son, Nico Thomas, who is 
8 years old and attends Naylor Road through the Opportunity 
Scholarship Program; and Nia, who is 4 years old, who has been 
denied a scholarship, and she will be attending kindergarten 
this coming year.
    My annual income is approximately $12,200; therefore, I fit 
the criteria for the low-income guidelines for the program. I 
am currently unemployed due to a disability that prevents me 
from having long-term employment. I worked, first of all, since 
I was 14 years old until the year 2000 when I initially became 
disabled. For several years, I have waited and went back to 
attempt to regain employment. Unfortunately, that employment 
venture did not last long.
    I worked as a supervisor for Identification and Records at 
the Metropolitan Police Department. I love working and 
performing supervisor and management duties. I cannot wait to 
get back to work when I am able.
    The Opportunity Scholarship Program has been a true 
blessing for me as well as Nico. He loves his school, his 
teachers, the staff, and his friends. Nico is a part of the 
reading and the debate clubs. He now wants to become a doctor. 
His class consists of 12 students, which allows them more 
hands-on learning, and it gives them better attention, and they 
learn two times better than they would in a public school 
environment, which would be larger classes. And they are given 
more attention as well, in the private school.
    The D.C. public school that is assigned to my neighborhood 
would be Birney Elementary, which is totally unacceptable for a 
school because of the Opportunity Scholarship Program being on 
the chopping block. And I cannot afford to send him to the 
Naylor Road School myself.
    I already lost a nephew through D.C. public schools. You 
may remember, February 2, 2004, the young gentleman, James 
Richardson, 17 years old, who was gunned down in Ballou Senior 
High School. That was my nephew who was shot. I wonder if he 
had the opportunity to have a scholarship would he be sitting 
here today as a success story. The school and his neighborhood 
had low expectations for the students, and that right there, to 
me, made me want to be a parent of a child that excels in the 
future.
    The scholarship provides my child an opportunity to be in a 
quality educational environment. They are also bright and 
willing to learn. My daughter, Nia, who is 4 years old, 
receives a Department of Human Services (DHS) voucher through 
the District of Columbia, which I also qualify for because of 
my income.
    I fought and advocated for her to attend Naylor Road School 
Annex because at the beginning they were not accepting DHS 
vouchers. But I fought, and I inquired back in July of last 
year. They applied for the vouchers, and they were approved, 
through the DHS program, to accept vouchers in December. The 
next day, she became a student at the Annex. She started 
immediately.
    She now knows all of her letters. She knows how to write 
her name. She is very articulate. This program has been a great 
success for my daughter. I am grateful to Washington, DC, for 
the voucher program for pre-kindergarten so that she can learn 
and get ready for the kindergarten.
    I applied for Nia to get a D.C. Opportunity Scholarship so 
that she could attend Naylor Road School for the 2009-2010 year 
to be with her brother. Initially, she was eligible for the 
scholarship, and I received the eligibility letter, and I was 
so elated. Then, a retraction letter came. Of course, I was 
devastated and angry. I wanted Nia to have the same opportunity 
to excel as well as her brother is. And Nia is so looking 
forward to going to Naylor Road. She often asks me, ``Mom, when 
will I go to school with Nico?'' And I used to tell her soon. 
Now, I do not know what to tell her. Because of the Opportunity 
Scholarship Program being on the chopping block, I have no 
answer for her.
    My children really need this program to continue. Without 
it, I truly do not have a clue as to where I will send them. My 
assigned neighborhood school, which is Birney Elementary off of 
Martin Luther King, is totally an unacceptable place, and the 
options are so limited this late in the season.
    I would like to ask Secretary Arne Duncan, how is it that 
my child should not be given the same opportunity as his 
children to get the best education possible? And I ask Mayor 
Fenty and President Obama to get involved. The children are our 
future, and education is what is necessary for our future. 
Without that, what kind of future do we have?
    I attended the rally last week at Freedom Plaza. We 
submitted over 7,000 D.C. residents' signatures on a petition 
that agreed with us to continue this Opportunity Scholarship 
Program. And I am asking, humbly, the President, the Senators, 
Mayor Fenty, everybody, and I am pleading with you all to 
rescind that decision to deny the new applicants, as well as 
those children that were given scholarships.
    Education is the No. 1 priority in my household, and by 
allotting Federal funding toward this program, it is a success. 
It shows great improvement in the government's decisionmaking. 
It is evident that the program is working because the 
statistics show the students have higher test scores. The 
program shows that low-income children can excel when given the 
opportunity. It gives parents such as myself hope for our 
future.
    My children's future depends on this opportunity. They have 
bright goals for their future. My son wants to be a doctor; my 
daughter wants to be an actress and intends to go to Hollywood 
one day. [Laughter.]
    But without the proper education, how would they get to 
those goals?
    Remember, our children are our future, and without this 
proper education, what type of future will we have? So please 
recommit to this outstanding program. And I thank you, and so 
do Nico and Nia, in advance, because we do believe that you all 
will make the right decision when it comes to education.
    Chairman Lieberman. Thanks so very much, Ms. Bennett, for 
an excellent statement. I think you said at one point that your 
children were articulate. I would say that their mother is 
articulate as well.
    Ms. Bennett. Thank you.
    Chairman Lieberman. Incidentally, you mentioned the 7,000 
signatures. These were delivered to us today. So the Committee 
has them, and they will be part of our record as well.\1\ Thank 
you.
---------------------------------------------------------------------------
    \1\ The petitions referenced by Chairman Lieberman are on file with 
the Chief Clerk in the Committee offices.
---------------------------------------------------------------------------
    Next, we have Tiffany Dunston, who is a former student at 
Archbishop Carroll High School here in the District.
    Ms. Dunston, thanks. Please proceed.

  TESTIMONY OF TIFFANY DUNSTON,\2\ FORMER STUDENT, ARCHBISHOP 
                      CARROLL HIGH SCHOOL

    Ms. Dunston. Good morning, Mr. Chairman and Members of the 
Committee. Thank you for having a hearing on the D.C. 
Opportunity Scholarship Program. It is a tremendous honor being 
a recipient of the D.C. Opportunity Scholarship Program. And I 
want to thank you for allowing me to speak with you about my 
experiences with the D.C. Opportunity Scholarship Program.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Dunston appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    I had a dream of going to Archbishop Carroll High School, 
but that was not possible. I lived with my grandmother, who is 
disabled, and she could not afford to send me to the school of 
my choice. She applied for the scholarship because she wanted 
the best education for me. Receiving a scholarship was a 
blessing for my family and put me on the path to success. I 
grew up in a neighborhood with a lot of poverty and crime, and 
there were such low expectations for kids in my neighborhood 
schools.
    My family also experienced our own tragedy. My motivation 
to get the best education possible was my cousin, James 
Dunston, who was shot and killed at 17. James was planning to 
attend college and play basketball. My cousin was going to be 
the first college graduate in my family, but he died before he 
was given that opportunity. Now, I am trying to step in his 
shoes and finish what he started.
    To my family and to myself, I am a representation of what 
he could have done for my family and community. Through the 
D.C. Opportunity Scholarship Program, I was afforded the 
opportunity to do just that. With the help of the scholarship, 
my dream was realized. I had a say, a choice, in my education.
    Now, when I look back on my high school years, I can 
definitely say that I came a long way. This personal journey 
was made possible by my education at Archbishop Carroll High 
School. The environment at Carroll is so different from public 
schools in Washington, DC, from the activities and curriculum 
to the way we are expected to treat our peers and our studies. 
I was constantly pushed to be a better person and individual 
student.
    At a public school, there are constant distractions from 
school work. With the scholarship, I was able to attend a 
school that provided a caring environment as well as a school 
where one-on-one relationships with teachers were possible. 
Additionally, Archbishop Carroll gives you a moral education, 
what is right and what to not do. The rigorous environment 
provided by Archbishop Carroll helped me to become the hard-
working student I am today.
    I just finished my freshman year at Syracuse University, 
where I received almost a full scholarship. I am excited to go 
back for my sophomore year and plan on majoring in biochemistry 
and minoring in French.
    I do look at myself as a D.C. success story, but I am not 
the only one who has seen such an achievement. I have friends 
who are in the same places I am. They were able to have a 
scholarship, and they are so happy with their experiences and 
how their future now looks.
    I was lucky enough to receive the Opportunity Scholarship 
for all 4 years at Carroll High School. Had my scholarship been 
terminated halfway through, I would not have been able to 
graduate from Archbishop Carroll High School at the top of my 
class. I am so grateful for this opportunity and sad that the 
other families will not have the same opportunity for their 
children if this program is terminated.
    While I was able to come a long way, I see the challenges 
that kids in D.C. still face. I am determined to be a part of 
this fight to continue this scholarship for other students. I 
have been very blessed and would like others to have the same 
opportunity. I am determined to build a better environment for 
those who are in need. I am on the path to success and hope 
others will have the same opportunity.
    You have the ability to give other D.C. children the 
opportunity I had. My education gave me the chance at a 
successful story and future. Please do not end a program that 
worked for me and is benefiting tons of other students.
    Three years from now, I will be walking across the stage 
receiving my college diploma, and none of this would have been 
possible without the D.C. Opportunity Scholarship Program. 
Thank you.
    Chairman Lieberman. Thank you very much. Your story is 
really not just evidence of the impact of the program, but it 
is an inspirational story. And, of course, all the program does 
is give a scholarship for an opportunity, then individuals have 
to make the most of it, which you obviously did. I know that 
you were the valedictorian in your graduating year at 
Archbishop Carroll, and you had a grade point average (GPA) not 
of 4, but of 4.1.
    [Applause.]
    Chairman Lieberman. We will not ask the Senators here what 
their GPA was, including me. [Laughter.]
    The final witness on this panel is Ronald Holassie, who is 
now a student at Archbishop Carroll.
    Thanks so much for being here.

 TESTIMONY OF RONALD HOLASSIE,\1\ STUDENT, ARCHBISHOP CARROLL 
                          HIGH SCHOOL

    Mr. Holassie. Thank you, too. My name is Ronald Holassie. I 
am currently Deputy Youth Mayor for Legislative Affairs for the 
District of Columbia. I am excelling and soaring to success. 
This program has changed my life and has made me the successful 
young man standing before you now.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Holassie appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    I credit this program greatly for my success, but it all 
started in sixth grade. My mother was extremely concerned about 
my education. I was coming home almost every night with no 
homework and with poor grades. She was on the verge of sending 
me to her home country, Trinidad, to go to school. Right around 
that time, she found out about the Opportunity Scholarship 
Program, and she applied for me, and I was soon accepted. She 
felt that now I had a chance to get a high quality education 
and have a bright future.
    Now, presently, I am about to go on to the 11th grade, 
which I now have found out will be my last year. Right before 
12th grade, my road to a brighter future and success will be 
shut down. Everything in my high school years will be lost. My 
road to a brighter future will be stalled. My future of success 
will become a lost dream. But that cannot happen. It should 
never happen.
    I say this and mean this: No one should take away my future 
of success and the future of the other 1,700 young children in 
this program. I will once again say, the D.C. Opportunity 
Scholarship Program must continue. There is no if, and, or but 
about it. Just as I have changed and evolved so much as a 
person, other Opportunity Scholarship Program recipients are 
doing so as well.
    It is not only about me and the other 1,700 recipients. I 
want other children to have the same opportunity of school 
choice as well. We are the future of Washington, DC, the United 
States of America, and the world. This program is so powerful 
as it can change an individual and make him a better, more 
successful person with a brighter future just like me. Everyone 
should have a choice, and everyone should have the right to 
school choice.
    Chairman Lieberman. Thank you very much, Mr. Holassie; an 
excellent statement. If we continue the program, even for the 
year or for people in it, you will have the opportunity to stay 
in it through graduation. But, obviously, we should act to make 
sure, first, to guarantee that; second, to make sure that 
others can have the opportunity you did.
    I am just going to ask one or two quick questions.
    Ms. Bennett, you indicated at one point that if the program 
is not extended and your daughter cannot use it and go to the 
same school as your son, that you find the public school that 
she would go to unacceptable.
    I just want to ask you, because it is important for us to 
know, why is it unacceptable and what have you found different 
and better, presumably, in the school that your son goes to?
    Ms. Bennett. Well, for starters, the school that is in my 
neighborhood is Birney Elementary School. I went to the school 
personally to observe what takes place throughout the day. And 
I observed no type of security. I observed students running up 
and down the hallway. I observed the principal not looking 
professional or even playing the part of a principal. I 
observed no type of discipline in the environment, just 
observing.
    At my son's school, Naylor Road School, first of all, it is 
secure. For entrance, any person, even parents, you have to go 
to the office to be permitted in any of the buildings. They do 
not need security officers because there are secured, locked 
doors, and before you are permitted to enter, you have to go 
into the office.
    It also gives them--because the buildings are like homes--a 
home type environment, each particular building, and it has 
smaller classes. It is a more safe environment. You do not even 
see children running outside. I mean, when I investigated the 
school prior to enrolling Nico there, I thought, wow, children 
go there? Because you normally see children running outside of 
the school, but it is so well maintained and so well 
disciplined.
    After my initial investigation of the school, I had to 
choose that school for him. It is much better. It is a safe 
environment. I do not want to lose my son or my daughter to a 
public school like my nephew, where everything is going on and 
it is not secure. It is not safe from what I observed, the 
public school in my neighborhood.
    Chairman Lieberman. I appreciate what you have said because 
it is possible that some people might say, well, the parental 
confidence about the security of a school is not an educational 
factor. But of course it is.
    Ms. Bennett. Yes.
    Chairman Lieberman. I would not want my child in a school 
that was unsafe because how could the child learn in an unsafe 
environment? And, of course, I would worry about the child's 
safety as a basic fact.
    I was thinking as I was listening to you, just to say it 
briefly, we all wish that every public school in Washington and 
everywhere else in America was the best and gave the best 
opportunity for an education to every one of our children, but 
wishing that does not make it so.
    It happens in the District that Mayor Fenty and Chancellor 
Rhee, I think, have worked very aggressively and imaginably to 
try to improve the public schools, but they are just not all 
where we need them to be now. Then the question becomes are we 
going to sacrifice the hopes of your children and these two 
extraordinary young people, and others like them wanting 
something better, while we are working to improve the public 
schools?
    I want to ask Tiffany and Ronald to take a moment and just 
describe what were the most significant changes for the better 
that you experienced when you went from the public schools to 
Archbishop Carroll?
    Ms. Dunston. Well, there are several differences between a 
public school and Archbishop Carroll High School. For example, 
as Ms. Bennett mentioned earlier, I attended Birney Elementary 
School, and right now there is no progression I can see, as far 
as my observing the school now.
    When I left Birney Elementary School, I attended a charter 
school, and it was similar to a regular D.C. public school. We 
were in trailers. It was not a building at all, so that kind of 
hindered my ability to be successful as far as environment-
wise. And when I went to Archbishop Carroll High School, it was 
just a whole transition altogether, as far as the safety nets 
that teachers provided for the students and the nurturing 
environment. And the challenging curriculum was just something 
different for me and made me a better person.
    Chairman Lieberman. Thank you. Mr. Holassie, do you want to 
add?
    Mr. Holassie. Oh, I feel that there are many differences. I 
feel that there are more expectations in private schools, and 
also Catholic schools, than there are in the public schools. 
Educationally, academically, the expectations for that are much 
higher.
    Chairman Lieberman. So you felt that the teachers expected 
you to do better, and in a very real way, that helped you do 
better.
    Mr. Holassie. Yes. The teachers in the private schools and 
Catholic schools really want me to succeed. I did not get that 
motivation in public schools.
    Chairman Lieberman. That is very important. Senator 
Collins.
    Senator Collins. Thank you.
    Let me thank all of you for your excellent and compelling 
testimony. I just have one question before we are going to have 
to go to vote. And I am going to ask Tiffany and Ronald to 
respond to the same question.
    We want to improve D.C.'s public schools as well, and I 
want to reinforce what the Chairman said. But I would be 
interested in your observations on the differences in your 
lives versus your friends who are left behind in the public 
schools that you left.
    Where are they now? What has happened to them? And do you 
believe that your ability to take advantage of this scholarship 
program helped you advance in ways that perhaps they have not 
been able to?
    Ronald, we will start with you.
    Mr. Holassie. Well, I feel that having the opportunity of 
the D.C. Opportunity Scholarship Program, it absolutely changed 
me as a person and helped me to evolve. I feel that, actually, 
it is the D.C. Opportunity Scholarship Program, and we need 
opportunities for scholarships for children in the District of 
Columbia, and those opportunities will greatly benefit them.
    Senator Collins. Tiffany, was there a difference for you 
compared to students who perhaps applied but did not get an 
Opportunity Scholarship because there was not enough funding?
    Ms. Dunston. I know several students who also applied for 
the scholarship that went to Carroll High School, who are now 
at colleges. I have a friend who is at Spelman College. She 
went through the D.C. Opportunity Scholarship Program as well.
    But other friends that went to D.C. public schools, I 
observed them just in the streets. I guess they are working, or 
not attending school, but they are not on the level that I know 
they could have been if they would have just tried to be 
successful in their education.
    Senator Collins. So their future does not look as bright as 
yours does as the result of your having this opportunity.
    Ms. Dunston. Yes.
    Senator Collins. Is that correct?
    Ms. Dunston. Yes, ma'am.
    Senator Collins. Thank you. Would you agree with that, too?
    Mr. Holassie. Yes, I would agree.
    Senator Collins. Thank you. Thank you very much.
    Chairman Lieberman. Senator Voinovich, the vote is on. We 
have about 7 minutes left.
    Do you want to try some questions now or do you want to 
wait until we come back?
    Senator Voinovich. I would rather wait until we get back.
    Chairman Lieberman. That is good.
    So we are going to stand in recess. Do not go far because 
we will try to get over to the Capitol and back real quickly.
    [Recess.]
    Chairman Lieberman. Let me ask everyone, please, to take 
your seats again, and we will begin to recommence the hearing. 
I thank you very much for your patience. I am sorry that we had 
to break. I think there will not be another vote for a while, 
so, hopefully, we will be able to go right through, finish this 
panel, and go on to the second panel.
    When we stopped, Senator Voinovich was next, and then we 
will go to Senator Burris.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and thank you for the very eloquent 
speech that you gave in your opening statement in terms of the 
quality of this program that we put in place several years ago. 
And, of course, the students who are here spoke eloquently 
about what a great program it is.
    I would like to give Mr. Chairman a little history here. 
When I first met Mayor Williams--and, Mayor, thank you so much 
for being here--I was on the Oversight of Government Management 
and the District of Columbia Subcommittee. Now, it is the 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia Subcommittee. And I said to him that 
the District of Columbia's school system ought to be a school 
system on the shining hill, something to be looked up to around 
the country, and that with half the kids dropping out of our 
urban school districts, Ohio, my State, and this Nation cannot 
be successful.
    So we worked with the mayor and other people. And, Mr. 
Chairman, we created the District of Columbia Tuition 
Assistance Grant Program (DC TAG). We discovered that District 
students did not have an opportunity for higher education 
except for the District of Columbia, and so we put a program in 
place to provide them with up to $10,000 for out-of-state 
scholarship money. And I suspect, Tiffany, you may have taken 
advantage of the DC TAG Program.
    In addition to that, Don Graham of the Washington Post and 
the business people got together and created the District of 
Columbia College Access Program (DC CAP). And we have seen the 
greatest increase in college attendance in the District. I 
think it is 60 percent, the biggest that has happened anywhere 
in the country.
    Then in 2004, Mr. Chairman, when we had this opportunity of 
helping the schools, we said, let us provide more money for the 
public schools, let us provide some money for charter schools, 
and then let us look into this issue of scholarships. And I was 
particularly aware of the scholarship program because it was a 
program that I helped start when I was governor of the State of 
Ohio. And I recall that the National Education Association and 
the American Federation of Teachers were opposed to it, and 
they said that the reason they were opposed to it was because 
it was unconstitutional. I felt that it was constitutional. And 
ultimately, in the Zelman v. Simmons-Harris case on June 27, 
2002, the Supreme Court said it is constitutional.
    We put this program in place, and the thought was that we 
are going to try to make a big difference in the District. And 
I would like to say, the District has made some significant 
improvement. But it is outrageous to me today that we are 
cutting this program off with yet a year to go. We should not 
even be here. We should not be having these hearings. I think 
the President coming out and saying we are going to let the 
program continue but no new kids--Mr. Chairman, I agree with 
you. If it is a bad program, then we ought to get rid of it. If 
it is a good program, we should continue it. And I do not think 
the President should allow the heat to be taken off of him by 
saying, well, we will let it keep going.
    The real problem here today--and everybody in this room 
ought to know this--is that this is a democracy that we are in, 
and we have people that lobby the Senate. But the National 
Education Association and the American Federation of Teachers 
do not like this program. And the thing that disturbs me--and, 
children, this is a lesson for you and your parents--is that 
they are not here today. They do not have the guts to come here 
and look at Tiffany in the eye and Ronald in the eye and 
Latasha in the eye and say, you know what, we are going to cut 
off your program.
    Now, if this is such a bad thing, where are they?
    Where are they, Mr. Chairman? This is outrageous. Not only 
should we be outraged here in this community in D.C., but we 
should be outraged nationally that somebody can reach into the 
process and somehow work in an amendment to a piece of 
legislation, cut off the money for a program, and not have to 
stand up and be counted and tell us why they think this should 
be done.
    [Applause.]
    Senator Voinovich. So, Mr. Chairman, I think that one of 
the things that we ought to talk about--I know what is going to 
happen here. We will have these hearings, and then it will go 
to our Committee, and we will probably have a vote out of our 
Committee, and then we will maybe not have the votes because of 
the pressure from the teachers' unions. And the leader has 
promised us that we will have a vote on the floor, I believe; 
we can discuss this.
    But what should happen is that Mayor Fenty and Michelle 
Rhee, and a few other people in this community, should call the 
leadership of the Democratic Party, and maybe some Republicans, 
and say, look, folks, let us just let this thing go. Let us 
just give them money for another year while we discuss this and 
let it go, instead of going through all of this that we are 
going through today. That is what we should be doing.
    So I would say this. Let us start thinking about our 
children. The D.C. school system is improving, but it is not 
where it should be. And when I heard that they were going to 
shut off this program, it was a discordant note.
    I do not know if you know this or not, but the Gates 
Foundation is going to put $140 million into the District 
during the next 10 years, and to regions where they have 60 
percent dropout rates. So we are making progress. And the fact 
that we are supporting this program does not mean that we do 
not support the public school system. We do. We want it to get 
better. And I learned a long time ago that if you have some 
measuring and some competition, it has a way of improving the 
overall system.
    Tiffany, please repeat again why you think that you had 
more of an opportunity when you took advantage of the 
scholarship. Tell us again.
    Ms. Dunston. Well, I believe that the Opportunity 
Scholarship Program has made me a better individual and student 
because it motivated me to be successful and guided me on that 
path to be successful. And it just challenged me as far as 
going to a different school, a Catholic school versus a public 
school. It was just a whole transition of becoming better. The 
environment challenged me because socially I was challenged 
when I was living in a poverty environment, so I just made 
myself a better individual as far as getting through my 
education.
    Senator Voinovich. Were you a good student in the public 
schools?
    Ms. Dunston. Yes.
    Senator Voinovich. And are you living with your 
grandmother?
    Ms. Dunston. Yes, my grandmother and my mom, they just 
wanted a better education for me. They knew that Ballou or 
Anacostia High School was just going to degrade me and make me 
nothing more.
    Senator Voinovich. Ronald, how about you? Let us talk about 
you a little bit more and what you have gained from this.
    Mr. Holassie. You are saying what I have gained from the 
opportunity?
    Senator Voinovich. Yes, from the opportunity. That is 
right.
    How do you feel it is different than, say, if you had 
stayed where you were before?
    Mr. Holassie. If I had stayed where I was before, I would 
not be at this point that I am now. I would not be deputy youth 
mayor. My way of thinking is totally different now. I feel that 
I am more intelligent, and I am headed toward a brighter 
future.
    Senator Voinovich. You came into the program how long ago, 
4 or 5 years?
    Mr. Holassie. Six years ago. I came into the program the 
first year.
    Senator Voinovich. At the time you were in school, were you 
thinking about going to college at that time?
    Mr. Holassie. Yes. I always knew I would go to college.
    Senator Voinovich. And why did you know that?
    Mr. Holassie. Because, I mean, it is a priority. You have 
to go to college to be successful in life.
    Senator Voinovich. Tiffany, you are the first in your 
family to go on to college?
    Ms. Dunston. Yes, sir.
    Senator Voinovich. Well, I would just like to say, Mr. 
Chairman, that it would be wonderful if somebody behind the 
scenes would take care of this, take care of it in the 
Appropriations Committee or someplace else, so we do not have 
to continue to go through all of this when we know the real 
problem here is that there is a couple of special interest 
groups that do not want to see this take place. And the 
American people should know it. That is too bad.
    Ms. Dunston. I have a question. Can I ask----
    Chairman Lieberman. Wait a second, now. [Laughter.]
    I know you have a 4.1 GPA, but we are supposed to ask the 
questions. But go ahead, please.
    Ms. Dunston. You stated that you wanted to make the D.C. 
public schools better.
    What are the steps to making it better? What are the plans 
to make them better?
    [Applause.]
    Senator Voinovich. Real quickly. First of all, I think that 
Mayor Fenty has continued the commitment of Mayor Williams that 
one of the most important things in the District is to improve 
the school system.
    Second of all, I think that you were able to attract an 
outstanding leader in Michelle Rhee, and she is working with 
the community. And they systematically are working on programs 
that are going to incrementally improve the school system. From 
my perspective, they are making great progress. And they will 
continue to make great progress if we can continue our charter 
schools and have a variety of opportunities that are available 
in the District as we move forward.
    Ms. Dunston. All right. Thank you.
    Chairman Lieberman. All right. Thanks, Senator Voinovich. 
Thanks for your passion, really, and your outrage because it is 
something to be outraged about. I appreciate it.
    Mr. Holassie, I want you to know--you could not see. I 
believe that is your dad sitting over to the----
    Is that right?
    He just had the biggest smile on his face when you 
explained that you were always going to go to college simply 
because it was a priority. And I think that goes back to him.
    Senator Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman.
    Mr. Chairman, I am concerned. Where are the public schools? 
Were they invited to testify today?
    Chairman Lieberman. Yes. I have not mentioned names, but we 
did invite both Mayor Fenty and Chancellor Rhee. We also 
invited the representatives of the two teachers' unions and 
some others who have been opponents of this program, and none 
of them would accept the invitation.
    Senator Burris. I see. I certainly am honored to hear these 
distinguished students and to hear their positions and their 
testimony, which was terrific. We are really pulling for you.
    My whole problem is that I can go get you some students in 
a public school, and they also went to college, and they also 
did very well, whether or not they had parental guidance or 
parental direction. What I am hearing from the testimony here 
is that all the public school kids are destined to be whatever, 
and I do not think that is what we are trying to convey here.
    I mean, we have some money that is going to help some 
children, and if we had money to help all children, perhaps we 
could have more people testifying, probably more people going 
to school and getting out of the poverty situation.
    I commend you young people. But I remember when we grew up, 
poverty did not determine our education. Our commitment and our 
parents determined our education. And you have to have your own 
goals and your own ambition to set that pace, and education is 
a vehicle to do that.
    So, Mr. Chairman, I have serious problems with the 
implications that have been put out here that money is going to 
be the answer to our children being successful and that there 
are some problems with the public schools. We also have 
schools, whether they are public or parochial or chartered, 
that have children that do not make it or children that are 
failures. So we can bring in students from all those charter 
schools that did not make it.
    So I am concerned that we are giving a bad impression here 
for a program that came into existence 5 years ago that has 
helped some people, and now the assessment of those programs, 
which, of course, are called vouchers, is running out, and 
there are some people saying that there is very little change 
in the overall improvement of most of the students.
    I understand that from my research that the only thing that 
improved a little bit for those 1,600 students that are 
involved in the program was reading. There has been no change 
in the math scores. And so, I do not want to have the wrong 
impression being communicated here that this program is the be 
all and end all for the problems, and vouchers are the be all 
and end all for the problems of our school children. I do not 
think that they are.
    We have to deal with what is happening in our public 
schools and make sure we correct those public schools. And if 
people are fortunate enough to go to a parochial school or a 
chartered school, then that is fine. But we cannot put the onus 
on public schools and not fund public education when it is the 
obligation of the government to see to it that our students are 
educated. And if we polled every school in the District of 
Columbia and pulled out some students and put them into a 
special program and gave them that special kind of attention, I 
guarantee you they would do better. And that is what we must 
concentrate on for every class, every school, not only in the 
District of Columbia, but in my city of Chicago or in the State 
of Illinois. We have a strong feeling about how we handle those 
charter schools.
    So I want to commend you young people. You do what you are 
supposed to do. And I know a lot of kids who have gone to 
public schools who also are going to be able to go to 
Princeton, are going to be able to go to college, are going to 
be able to go to Southern Illinois University, and are going to 
be able to go to Howard because they went to a public school. 
The fact that you went to a charter school is certainly a 
blessing, but that does not mean that the kids in a public 
school are not going to make it either.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Burris.
    Look, I said briefly earlier that this is not against the 
public schools. This is part of a----
    Did you want to say something, Ronald?
    Mr. Holassie. Yes, I did.
    Chairman Lieberman. Go ahead.
    Mr. Holassie. I would like to say about the public school 
situation that right now at the present time, most public 
schools are not at the standards that they should be 
academically. They are very low right now. And public schools 
did not get bad overnight, and they are not going to get better 
overnight. So why not have the Opportunity Scholarship Program, 
which will give children in the District of Columbia an 
opportunity to get a high quality education, which they cannot 
receive right now at this point?
    [Applause.]
    Chairman Lieberman. We have got to quiet down.
    Senator Burris. Mr. Chairman, I still have 2 minutes of my 
time. I did not use all of my time, Mr. Chairman.
    I want to ask this question. How many students are in the 
D.C. public schools?
    Chairman Lieberman. I am not sure I know the number--
72,000?
    Senator Burris. And how many students are in this program?
    Chairman Lieberman. It is between 1,600 and 2,000, 
depending on the year. I think it is about 1,700 now.
    Senator Burris. And you say we have 74,000 students at a 
program for failure.
    Chairman Lieberman. Well, obviously, there is some success. 
But, you know what, maybe we should save this for the second 
panel, although your answer was a good one, Ronald. But, to me, 
this program does not take a dollar from the D.C. public 
schools. As a matter of fact, it was part of an agreement that 
added millions of dollars to the public schools. And so it was 
all about creating options for parents and children while we 
are working our way to the day when the public schools can give 
the kind of education that all parents want their children to 
have.
    But I think we will have more on this in the second panel. 
Senator Ensign.

              OPENING STATEMENT OF SENATOR ENSIGN

    Senator Ensign. Thank you, Mr. Chairman. Thanks very much 
for holding this hearing. As a lot of folks know, I was the 
sponsor of the amendment to try to restore the funding for not 
only kids who are attending now but for kids into the future. 
And I think it is very unfortunate that the Secretary of 
Education has said that they are not going to allow new 
students into this program.
    One of the reasons that I appreciate your being here 
today--especially, Tiffany, you have been through it. I think 
it is the responsibility of people like you who understand the 
benefit of it to pay back so that other kids can have this 
benefit. And, Ronald, I loved your answer there.
    By the way, I am a product of public schools. And, yes, I 
went to college. I went to veterinary school. I have a 
professional degree and all of that. And there are a lot of 
great public schools around the United States. There are, I am 
sure, some great public schools even within Washingotn, DC. 
There are some great teachers. There are some people who really 
care. But overall, Ronald, you are correct. The system in 
Washington, and in most other parts of the country, is not 
working. We are competing in a global marketplace today, and we 
have arguably the worst or second worst K through 12 system in 
the world today, and that is unacceptable.
    For those who have argued that education is a civil right, 
to allow kids to be in failing schools--even if you are giving 
them an education, if it is a failing school, that is not 
providing a civil right. I believe in putting kids before 
special interest groups, and that is really what this is about.
    There are many reforms out there. New York City has had 
some great articles recently. And, actually, the Secretary of 
Education came out and talked about the charter schools in New 
York City and the dramatic results that they have had in 
improving education. Those are public schools, but they are 
charter schools.
    There is no one single answer for improving education. This 
is just one little piece that we are trying to preserve that 
has given 1,700 kids an opportunity to succeed, and there are 
some great examples. And, Ronald, I know when we did our press 
conference a month or two ago, I was very impressed with you 
and some of the other kids who were there that day. Seeing your 
faces, Tiffany, I am impressed with what you are accomplishing. 
And, Latasha, I am a parent, too. I have kids, and I want the 
best for them. As a matter of fact, I have a child who has 
special needs, and we actually found a private school for him.
    Now, I am able to afford to send him to that school that 
meets his needs because they teach differently in the school. 
Now, we are fortunate that this school is going to become a 
charter school in a couple of years for other kids to be able 
to attend, and I am happy about that.
    But there are just too many different situations out there, 
and the bottom line is, we need to have choices. And if choices 
and experiments can show that one thing is working, maybe the 
public schools will see that one thing that is working and copy 
it. It is called competition and experimentation so that we can 
improve all kids' education. Because if we want to send kids 
out into the world today to be able to compete against the 
Chinese and the Indians and the Europeans and the South 
Americans, they have to have a great education.
    I would submit this. We have the finest colleges and 
educations in the world. Nobody argues that. Hands down, we are 
the best. So many people from around the world want to come to 
the United States.
    Do you know the fundamental difference between K through 12 
education and our colleges and universities? In our colleges 
and universities, if you have the GI Bill, if you get a student 
loan, if you get a Pell grant, if you get a scholarship, you 
can go to any college you want to go to that you can get into. 
As a matter of fact, universities come, and they actually 
compete for the students. They recruit. So they are competing 
for those students. They are competing for those students and 
their money. If you do not have the means in K through 12, most 
people, it is a monopoly situation, are stuck there.
    So what we are trying to do is provide some choices. That 
is why I like charter schools. That is why I like the ideas. 
Not to take away from the public school system, but to improve 
the public school system. We have great public colleges. We 
have not destroyed the public colleges in the United States by 
having competition; we have actually made them better. In 
Washington, DC, now, it costs $15,500 per student, per year.
    Ronald and Tiffany, do you know how much the voucher 
program is worth? The scholarship program that you are in, do 
you know how much you get?
    Mr. Holassie. Washington, DC, are you saying?
    Senator Ensign. Yes.
    Mr. Holassie. Seven thousand five hundred dollars.
    Senator Ensign. That is correct. So it is half.
    By the way, every student is taken out, so D.C. public 
schools got more money, plus the fact that they do not have to 
educate the scholarship students. And you are getting half the 
price, and even though the study was not a great study, it 
certainly showed some positive results, and at least that is 
good. Positive results are good.
    Now, if they actually did the study properly and just 
studied the kids that were in the program instead of studying 
the kids who did not get into the program--I mean, how do you 
group those two together? It just does not make any sense to 
me. But it still showed improvement, even with a flawed study. 
And that is the bottom line. We should be about improving kids' 
education.
    So I thank all of you for being here and fighting for this. 
And we need to continue to fight together.
    [Applause.]
    Chairman Lieberman. Thanks, Senator Ensign.
    Friends, I have been a little light on the gavel here, but 
we are not accustomed to applause, usually, during Committee 
hearings. So if you can restrain yourself, please do.
    Senator Ensign. Mr. Chairman, I am glad you said that after 
I got my applause. [Laughter.]
    Chairman Lieberman. Yes.
    I want to thank this panel. You have been really 
compelling, and unfortunately, the D.C. Opportunity Scholarship 
Program has become an issue around which there is a great 
national debate. And in some sense, this panel reminds us that 
in the middle of this debate between different forces, there 
are real people--real parents who want the best for their 
children; real children with all the ability that God gave 
them, and they are just looking for the opportunity to develop 
it. And you have spoken with remarkable force and clarity and 
eloquence. I appreciate it very much.
    Ms. Bennett, I admire you as a mother and know that your 
children will do well. And I hope that little daughter can get 
into this program.
    Tiffany, did you say you are in a microbiology program?
    Ms. Dunston. Biochemistry.
    Chairman Lieberman. Biochemistry. So I am sure you are 
going to come back to the District either as a Ph.D. in 
something like that or a doctor and do great things.
    Ronald, someday you are not just going to be deputy mayor.
    So thank you for being here. God bless you. I will now call 
the second panel. Thank you very much. I know if I had not 
chastised everyone here, you would have received enormous 
applause at this point.
    So we will call to the table Hon. Anthony A. Williams, 
former mayor of the District of Columbia; Bruce B. Stewart, 
Head of School of the Sidwell Friends School; and Patrick J. 
Wolf, Ph.D., principal investigator, Institute of Education 
Sciences Study, who comes to us from the College of Education 
and Health Professions at the University of Arkansas.
    We thank the three of you. We thank you for your patience. 
We are very eager to hear your testimony.
    Mayor Williams, the truth is you need no introduction, but 
just let me say how much I admire your public service. And I 
have watched it since you were a student at Yale College and 
went into New Haven city government, and on from there. It has 
been remarkable to see all that you have done and all that you 
have accomplished. Your leadership on behalf of the children of 
the D.C. school system, not just on behalf of the institutions, 
but on behalf of each of the children, has really been a model 
for a lot of us. So we welcome your testimony now.

 TESTIMONY OF HON. ANTHONY A. WILLIAMS,\1\ FORMER MAYOR OF THE 
                      DISTRICT OF COLUMBIA

    Mr. Williams. Well, good morning, Chairman Lieberman, 
Senator Collins, and Members of the Committee. I greatly 
appreciate your leadership on numerous issues of great 
importance to the District of Columbia, our Nation's capital, 
especially, I want to say, on voting rights. Although the 
journey is far from over, District residents are closer to 
achieving the full fruits of American democracy, civil rights, 
thanks to this Committee. And in that vein, I am pleased to be 
here to speak about another civil right, education, and in 
particular, the D.C. Opportunity Scholarship Program, which has 
expanded educational options for low-income students in 
Washington, DC.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Williams appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    I have often said that I would not be here today and would 
not have been mayor of the District of Columbia had it not been 
for loving parents that made sure I had the very best education 
possible. I am sure this is the case for Members of the 
Committee as well. Opportunity Scholarships, in fact, have 
improved the education of thousands of children from low-income 
families, one of whom may be a future mayor of our city as we 
saw with Ronald, or perhaps a congressperson, or maybe even a 
senator.
    As many of you know, I was present at the creation of the 
D.C. Opportunity Scholarship Program, and I want to say some 
people claim that it was forced on the city, or foisted on the 
city, by the evil Federal Government or Republican White House. 
This is not accurate, and I would like to set the record 
straight.
    The program was shaped and championed by D.C. leaders, the 
same way the TAG program was that Senator Voinovich mentioned. 
The DC CAP program, the same thing here. In fact, yours truly, 
Kevin P. Chavous, then chair of the District Council's 
Education Committee, and then President of the D.C. Board of 
Education, Peggy Cooper Cafritz, and many local parents, 
educators and community leaders worked on the program. We 
worked closely with the previous Administration to develop what 
many refer to as a three-sector program.
    So the three-sectors approach we talked about was not 
originally part of the design. Local leaders working with the 
Congress and working with the White House ensured that the 
public schools, the public charter schools, and the D.C. 
Opportunity Scholarship schools would all be funded.
    Now, as one would expect, there was not unanimity among 
educational leaders on whether the District should have 
vouchers for private school education. Some would have, in 
fact, turned down support for public charter schools based 
solely on ideological opposition to voucher programs or choice. 
I have to say I listened to these sentiments, but I also 
listened closely, and I think more importantly, to the many 
low-income parents who implored me to put children first. And 
it became clear to me that there was no reason to deny these 
parents the opportunity to make the best choices for their 
children, the same choices that more affluent people make 
everyday, the same choices that parents make for college 
everyday.
    Indeed, and unfortunately, there are still some who do not 
think that low-income parents should or are even capable of 
making these choices. And I profoundly disagreed and vowed that 
we offer the opportunity and see, indeed, whether parents would 
take advantage of the options, and they did in a very big way. 
And, in fact, I was impressed as mayor that mothers in the most 
desperate circumstances know intuitively and fundamentally what 
is important for their children, and we saw that here today.
    Now, 5 years later, I am pleased that the D.C. Opportunity 
Scholarship Program has been a big success. Over 2,600 students 
have used the scholarships, and there is high demand in the 
community with more than 8,000 families applying.
    It was really important to me, and other original sponsors, 
including Senator Dianne Feinstein, that the original bill 
contained an evaluation component. And I would say, as part of 
the evaluation component, we were looking to see that there 
were actual metrics of success. And among the key findings we 
found so far are: Children have higher test scores; there is 
overwhelming parental satisfaction; parents are more involved 
in their child's education; students attend schools that are 
more integrated and have smaller class sizes; and finally, 
children have an improved attitude, and we saw this today, 
toward learning, toward their ambition, and toward their sense 
of self-esteem and their enthusiasm about the learning 
experience.
    I would also say, as far as the evaluation of the program 
is concerned, the program was designed so that for the first 
time we would have a rigorous, however flawed, sustained 
evaluation of choice in the Nation's capital. And I would agree 
with Senator Voinovich. I would say that at a very minimum, we 
allow the program to continue and evaluate it on its original 
terms before we stop it, undermine it, short circuit it, and 
claim it is a failure.
    I am also pleased that the General Accounting Office (GAO) 
reviewed the management of the D.C. Opportunity Scholarship 
Program. A 2007 report highlighted a number of areas where 
administrative and management practices could, in fact, be 
improved. The program administrator, the Washington Scholarship 
Fund, has addressed these deficiencies, and the program has 
been, I think, improved materially. And I can tell you that 
having served as a mayor of a major American city that was 
subject to many GAO reports, the findings on the D.C. 
Opportunity Scholarship Program were certainly within the 
margin of reasonable improvements. And overall, they 
demonstrated that the program has been administered 
successfully, I think, in the face of an overwhelming challenge 
of getting the program up and running in a very short period of 
time.
    The bottom line is that a school choice environment is 
thriving in Washington, DC. There is a robust public charter 
school movement that is now educating over one-third of our 
students. And I applaud, as this Committee does, the work of my 
successor, Mayor Adrian Fenty, and our chancellor, Michelle 
Rhee, in giving unprecedented authority to the D.C. public 
school administration to act boldly, urgently, and 
aggressively. And I applaud them for their bold reform efforts 
and admire that kind of tenacity. Both of them, as we all know, 
are articulate supporters of school choice and recognize that 
every child benefits when parents have more than one option for 
a quality improved education choice.
    I strongly urge the Committee to pass the reauthorization 
for the program. It is not enough to fund only the current 
children while not accepting new applications. That decision, 
in fact, as we have seen today, would split up families, could 
force the closure of some schools, and seems to be made more on 
the basis of political compromise rather than on the basis of 
real facts as they affect families.
    It will be difficult to administer this program on a scale 
smaller than the current size, and participating schools will 
face higher per capita compliance burdens as the number of 
students dwindle. And quite frankly, I am somewhat befuddled by 
the proposal to have the program die by, in effect, attrition. 
As a lifelong Democrat who served 8 years as mayor of 
Washington, DC, with a predominantly African-American 
population beset by many challenges to the basic family 
structure and fabric, most importantly, a decades-long system 
of inferior education, I cannot understand why anyone would 
eliminate a program, especially when it is not costing the 
schools or the local District government a dime, that has 
uplifted the lives, fulfilled the dreams, and given hope to 
thousands of low-income families.
    Now, I am not here to advocate for national policies or to 
speak beyond the needs of the city I served as mayor. I am here 
to say that given the unique--let us say peculiar--relationship 
between the Federal Government and its capital city, the three-
sector program, including the D.C. Opportunity Scholarship 
Program, is an appropriate and well-deserved and, I think, 
productive Federal investment.
    Last week, I had the opportunity and was very proud to 
speak at a rally in support of choice in the District. Over 
2,000 parents, children, and members of the community came 
together outside our city hall. These families presented to the 
mayor and to the District leadership a petition.
    Mr. Chairman, you have shown the package--7,400 signatures, 
all D.C. residents, who not only support the program but want 
it reauthorized and, in fact, expanded and strengthened. What 
better measure of success than the desire of parents, the 
desire of citizens, citizens of the District, to continue the 
program? And you have heard from a couple of them today, and I 
think their testimony has been profound.
    I have to tell you, far beyond any building--and my wife 
gets sick of me driving around the city saying I helped build 
this and I helped build that--I think my real sense of pride is 
to say that I had some small role to create a program where 
Ronald and Tiffany could sit here today and talk to you about 
their successful dreams and ambitions. We need to continue 
that, we need to support that, and we need to reauthorize this 
program. And I thank you for the opportunity to testify today.
    Chairman Lieberman. Thanks, Mr. Williams. That was very 
powerful. Thanks for what you did when you were mayor, and 
thanks for sticking with it after.
    We are very grateful, Bruce Stewart, that you are here. 
Bruce Stewart is the Head of Sidwell Friends School, a great 
private school here in Washington, really, probably one of the 
best in the country, which has taken students under the OSP 
program. And we look forward to hearing your experience with 
that now. Thank you.

   TESTIMONY OF BRUCE B. STEWART,\1\ HEAD OF SCHOOL, SIDWELL 
                         FRIENDS SCHOOL

    Mr. Stewart. Thank you and good morning. I am delighted to 
be here today to speak about this critically important issue. I 
want to apologize in advance, though, for my hoarseness. I hope 
you can indulge that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stewart appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    School choice, I believe, is as fundamentally American as 
apple pie, and D.C.'s experimental Opportunity Scholarship 
Program is a significant means of providing District families 
with a whole new awareness regarding the best options for their 
children's academic growth. Indeed, this initiative has 
prompted scores of historically underserved people to think 
even more carefully, thoughtfully, and critically about the 
education of their daughters and sons. And I use that sequence 
because I have three daughters.
    How Americans cultivate human capacity will undoubtedly 
shape our national economic viability. As McKinsey and Company 
has so aptly noted in its very recent research efforts, the 
racial, economic, and regional gaps in education across our 
country ``impose on the United States the economic equivalent 
of a permanent national recession.'' That is, I believe, a 
powerful observation.
    Hence, I think that we, and each of you in particular, must 
do all that can be done to sustain D.C. Opportunity 
Scholarships for the young people of the District. I think we 
would all agree that choice and competition are fundamental 
threads in our country's fabric. We have, I believe, a strong 
national conviction regarding alternatives. Is it not far more 
American to select from options and opportunity ranges in the 
marketplace, in health care, in vocation, in religion, in 
location of our homes, in the election of our public officials, 
and in a host of other key value decisions, than to select from 
a few heavily restricted options or a single forced choice?
    For me, involvement with the OSP has brought my own early 
public school experience vividly back to life. As one who grew 
up in a largely immigrant community in Lynn, Massachusetts, I 
hold clear recollections of family and neighbors deeply 
concerned about the community's schools and the opportunities 
they did or did not present for their children. Hence, 
throughout my career as an academic administrator, I have 
maintained the strong conviction that every child should have 
the option to attend a school of appropriate academic fit 
regardless of place of residence.
    In my time, public, parochial, independent, vocational, and 
boarding schools were all options. Choice was often the product 
of particular personal or family beliefs, but academic rigor 
and preparation for vocational and college study were also 
almost always distinctly top-tier considerations.
    It is good to see these mind-sets returning to the 
forefront in D.C. and to know that families are once again 
engaging in a reflective discussion about their children's 
school placement. I think there is little question that society 
benefits immensely when opportunities are offered to all, not 
simply to some.
    Let me offer a personal observation from my own career 
journey. My first full-time teaching assignment was in public 
education in Greensboro, North Carolina, just after the sit-ins 
at the now historical Woolworth lunch counter. As a teacher and 
ninth grade guidance counselor, a very important part of my 
work my very first year of my career was with a dozen or so 
young black Americans who were the first of their race to enter 
Walter Hines Page High School. They were given choice, but that 
opportunity required unparalleled courage and conviction and 
led them through great personal pain and sacrifice simply to 
enjoy equal access.
    That experience immediately inspired in me a strong 
determination to do all that I could to see that every young 
American, regardless of background, received a fair chance at 
the best education possible. It is still my hope that this goal 
will one day be fully met, and not as a matter of random 
occurrence, but rather through carefully reasoned public 
policy.
    School integration by race has made a true difference, and 
I believe that greater school mixture by economic standing is 
similarly essential. We must not allow one racial or socio-
economic tier of our society to flourish while others languish. 
The one and the many are, and must continue to be, inextricably 
intertwined if we are to achieve the full potential so 
powerfully present in our ever-maturing democracy. For 
justice's sake, we cannot have the connected rife with choice 
while the disenfranchised remain captured by circumstance.
    Over the past 50 years, I have personally experienced the 
maturation of our society's growing commitment to racial 
equality. After Page High School, I had the wonderful 
opportunity to work first with Governor Terry Sanford as one of 
the founders of the North Carolina School of the Arts and then 
with Governor Jim Hunt as a consultant to the development of 
the North Carolina School of Science and Mathematics. For 14 
years, I served in the administration of Guilford College as 
Director of Admissions, Assistant to the President, Provost and 
Acting President; then I became Head of Abington Friends 
School, and now I serve as Head of School at the Sidwell 
Friends School. In all of these institutions, I have thankfully 
had numerous opportunities to advocate for social justice.
    In each case, one of my professional priorities was 
increasing student access, not only in terms of race but also 
in relation to economic background. It made no sense to me, as 
the son of a Scottish immigrant who attended school only 
through the third grade, not to do all in my power to make 
certain that every child could gain access to the school of his 
or her choice.
    My father's words always echoed in my ears, ``Boy, I 
crossed the great pond, the Atlantic, to give you learning 
opportunities that I could never enjoy. Do not ever make 
excuses. Achieve! Be all that you can be.'' That was his dream 
for me. And for nearly 50 years, that has been my dream as an 
educator for every American child; no exceptions!
    I am very proud of the fact that today, Sidwell Friends 
School (SFS) enrolls a truly diverse community of students. 
Currently, we serve two students who have qualified for OSP 
grants and three who are Signature Scholarship recipients, both 
programs being administered by the Washington Scholarship Fund. 
Each of these young people has prospered, having worked 
determinedly to take full advantage of the school's varied and 
rigorous curricular and co-curricular programs. Sidwell Friends 
School is honored to be the school of their choice. Clearly, 
all of these youngsters, and many more enrolled at other 
independent and non-public schools across the District, 
reached, and reached high, for a challenging education.
    When the D.C. Opportunity Scholarship Program was 
originally announced, there were many members of the 
independent school community who were qualified in their 
endorsement of it, fearing government interference. Sidwell 
Friends School, however, felt that young boys and girls should 
not be trapped in a school ineffective for them and their needs 
and abilities simply by the quirk of birthplace, race, income, 
or current home address. Therefore, I am happy to say that SFS 
was the first such institution to step forward to participate 
in the OSP, and without any measure of reservation. We believed 
that a new set of applicants from modest economic circumstances 
would be motivated to consider independent and other 
educational options because they would now have the support, 
financial and otherwise, to do so.
    As a result, Sidwell Friends School would be able to 
educate and benefit additional deserving young people. And 
while we felt we could proffer great service to them, there was 
no doubt in our minds that they in turn--and I want to 
emphasize this point--would significantly enrich our school 
community by bringing an invaluable perspective into our 
classrooms.
    As Neil Rudenstine, former President of Harvard University, 
so aptly observed, what an academic value it is to have ``every 
face present and every voice heard'' in the classrooms of our 
Nation. There was no way, he believed, of achieving the 
academic excellence we all seek without that crucial variety. 
Yes, access is morally appropriate, but diversity is also 
absolutely fundamental to learning at the highest level.
    I think of my own teaching of high school economics. What 
kind of classroom would one have and what sort of discourse 
could one prompt in a discussion, for example, of national 
housing policy if nearly everyone present is either from the 
comfort of affluence or the challenge of poverty? Good 
exploration of any concept requires multiple voices and varied 
perspectives and not narrowly synonymous thought. For authentic 
excellence in education, we desperately need to ensure that 
there is a true mixture of diversity and complexity of 
perspective in all of our academic dialogues.
    The Opportunity Scholarship Program is the beginning of the 
opening up of the genuine possibility for all American students 
to know and experience one another. What could be better for 
the goal of ending the polarity of red and blue in America, 
which I know you desire, than the creation of a Nation of 
citizens who respect and understand the perspectives held by 
people of different backgrounds and viewpoints?
    Our collective essence as Americans has always been the 
source of our truest strength. Please do not allow this 
important step toward pluralism that OSP represents to recede. 
Keep the windows you have opened open and unlock even more. Go 
forward and not backward. Enlarge our national vision, do not 
narrow it!
    Horace Mann, from my home State of Massachusetts, who was 
an early and distinguished national leader of public education 
in America, called on us ``to be ashamed to die until we have 
achieved some great victory for humanity.'' I strongly implore 
you to make certain that the positive steps already taken with 
OSP do not slip quietly away by virtue of inaction. Ensuring 
the opening of our educational system so that all are served 
and served well cannot be left to a matter of chance. Rather, 
it must be brought to a condition of certainty. Continuance of 
the Opportunity Scholarship Program, in my judgment, is one 
very powerful step in that needed direction. Thank you so very 
much.
    Chairman Lieberman. Thank you, Mr. Stewart. That was 
excellent. You make a point that we miss at our peril, which is 
that this program is not only good for the students who get to 
make the choice with their parents of where they want to go, it 
is good for the schools and the other students at the schools 
to which they go. I appreciate that.
    Dr. Wolf, thanks for being here. Thanks for coming up from 
Arkansas. Thanks for the work that you have done. Dr. Wolf is 
the principal investigator for the evaluation commission by the 
Department of Education. We look forward to your testimony now.

STATEMENT OF PATRICK J. WOLF, PH.D.,\1\ PRINCIPAL INVESTIGATOR, 
INSTITUTE OF EDUCATION SCIENCES STUDY, COLLEGE OF EDUCATION AND 
           HEALTH PROFESSIONS, UNIVERSITY OF ARKANSAS

    Mr. Wolf. Mr. Chairman, Senator Collins, Members of the 
Committee, we interrupt this long string of inspiring stories 
from students, parents, and educational leaders for 10 minutes 
of droning from a researcher. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wolf with attached charts appears 
in the Appendix on page 66.
---------------------------------------------------------------------------
    Seriously, I am pleased to be with you today to discuss the 
results of the three-year impact evaluation of the D.C. 
Opportunity Scholarship Program, or OSP for short. I am the 
principal investigator of an outstanding team of researchers 
conducting that congressionally mandated study, supported by 
the U.S. Department of Education's Institute of Education 
Sciences. I am also a professor of education policy at the 
University of Arkansas, with more than a decade of experience 
evaluating school-choice programs in the District of Columbia 
and across the Nation.
    Although the facts that I present to you today are taken 
directly from the impact evaluation, the ideas and opinions 
that I express are mine alone and do not necessarily represent 
any official positions of the evaluation team, the University 
of Arkansas, the Institute of Education Sciences, or the U.S. 
Department of Education.
    Our evaluation of the OSP is the largest school voucher 
study in the United States to use random assignment, the gold 
standard of program evaluation. Two cohorts, totaling 2,308 
students that applied to the program in 2004 and 2005, 
represent the impact sample that we are following for purposes 
of this study. A total of 1,387 students in the study won the 
scholarship lottery and were, thereby, assigned to the 
treatment group, while the remaining 921 students who did not 
win the lottery were assigned to the control group.
    Evidence from the study confirms that the OSP serves an 
historically disadvantaged group of D.C. students. Over 90 
percent of students are African American and 9 percent are 
Hispanic. Their family incomes averaged less than $20,000 in 
the baseline year in which they applied to the program. On 
average, participating students were performing around the 33rd 
national percentile in reading and math at baseline. Forty-four 
percent of students in the impact sample were attending public 
schools designated as schools in need of improvement (SINI) 
between 2003 and 2005.
    The Opportunity Scholarship Program offers students 
vouchers but cannot guarantee their subsequent enrollment in a 
private school. Moreover, no one can stop members of the 
control group from attending a private school outside of the 
program. Adding public charter schools to the mix, we see in 
Figure 1,\2\ distributed to the Committee, that members of both 
the treatment and control groups attended all three types of 
schools--private, public charter, and traditional public--in 
year 3 of the voucher experiment, though the proportions that 
attended each type differed significantly based on whether or 
not they won the scholarship lottery.
---------------------------------------------------------------------------
    \2\ The chart referenced by Mr. Wolf appears in the Appendix on 
page 77.
---------------------------------------------------------------------------
    Among the treatment group, 72 percent of the students who 
provided outcome data in year 3 were attending private schools, 
9 percent were in public charter schools, and 19 percent were 
in traditional public schools. For the control group, 12 
percent were in private schools, 34 percent in charter schools, 
and 54 percent in traditional public schools.
    I see these data as underscoring that the desire to 
exercise school choice was strong for the families who applied 
to the OSP in 2004 and 2005. About 81 percent of them placed 
their child in a private or public school of choice 3 years 
after winning the scholarship lottery, and 46 percent of them 
did likewise even if they lost the lottery. This also means 
that any differences between the outcomes of the treatment and 
control groups indicate the incremental impact of adding 
private school choice through the OSP to the existing schooling 
options for low-income D.C. families.
    In our reports, we provide three different estimates of 
this program effect. The impact of the offer of treatment 
simply subtracts the control group outcomes from the treatment 
group outcomes, regardless of the type of school the members of 
each group attended. The difference is the experimental impact 
of the scholarship offer.
    We also estimate the impact of actually using a scholarship 
compared to being in the control group. We do so by adjusting 
the experimental impact to account for students who never used 
their scholarship and, therefore, could not have been affected 
by it.
    Finally, we use a statistical procedure called Instrumental 
Variable Analysis to estimate the effect of attending a private 
school compared to attending a public school.
    All three effect estimates are provided in my written 
testimony and in our impact report. For the remainder of this 
testimony, whenever possible, I will highlight the impacts of 
using an Opportunity Scholarship because that impact is 
informative, intuitive, and widely accepted in the research 
community.
    Our analysis of the data after 3 years of participation in 
the OSP revealed that the program had a statistically 
significant positive impact at the 95 percent confidence level 
on the test scores of students in reading. The positive impact 
of the voucher program on student reading scores after 3 years 
amounted to an average gain of 5.3 scale score points from 
scholarship use. We know from this study that participating 
D.C. students are reading at higher levels as a result of the 
Opportunity Scholarship Program. No statistically significant 
impacts were observed in math.
    The more conservative pure experimental impacts of the 
scholarship offer were measured consistently across all 3 years 
of our impact evaluation. When we examined them over time, as 
in Figure 2,\1\ the data appear to show a trend toward larger 
reading gains cumulating for students in the program. 
Especially when one considers that school choice requires 
adjusting to a new and different school environment in the 
short run, the experimental reading impacts of 1 scale score 
point but not significant in the first year, 3.2 scale score 
points but not significant in the second year, and 4.5 scale 
score points and significant in the third year suggest that 
students are consistently gaining in reading performance 
relative to their control group peers the longer they 
experience the OSP. No such trend is apparent regarding math 
achievement.
---------------------------------------------------------------------------
    \1\ The chart referenced by Mr. Wolf appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    When examined as separate subgroups, five types of students 
experienced significant reading impacts after 3 years as a 
result of using an Opportunity Scholarship. Students who were 
not attending schools in need of improvement prior to entering 
the program gained an average of 7.7 scale score points from 
using a scholarship. Students in the higher two-thirds of the 
performance distribution, whose average reading test score was 
at the 37th national percentile at baseline, gained 6.2 points. 
Students entering grades K-8 at baseline gained 6 points. 
Female students gained 5.9 points. And the students in Cohort 
1, the eager ``first movers'' into the program, such as Tiffany 
and Ronald, gained 11.7 scale score points in reading from 
participating in the OSP. Since the initial results for these 
last two subgroups lost significance when subject to a 
reliability test, I would just caution that they be interpreted 
carefully.
    Reading impacts for the other five subgroups examined 
individually--applicants from schools in need of improvement, 
students in the lower one-third of the performance distribution 
at baseline, males, students entering high school at baseline, 
and students in Cohort 2--were not statistically significant 
after 3 years.
    The fact that significant reading impacts were not observed 
for the subgroup of SINI students is noteworthy since Congress 
designated them as the highest service priority for the 
program. Math impacts were not statistically significant for 
any of the 10 subgroups examined.
    Whenever school choice researchers have asked about 
satisfaction with schools, parents who are given the chance to 
select their child's school have reported much higher levels of 
satisfaction. Students themselves, for whatever reasons, have 
rarely described themselves, on average, as more satisfied with 
the new schools chosen by their parents.
    The year 3 satisfaction results from the OSP evaluation fit 
this pattern of previous studies. The proportion of parents who 
assigned a high grade of A or B to their child's school in year 
3 was 12 percentile points higher if their child used a 
scholarship. Parents also were significantly more confident of 
the safety of their children in school if they had been awarded 
an Opportunity Scholarship. Students in grades 4 through 12, 
when asked similar questions, were no more likely to be 
satisfied with their school or describe it as safe if they used 
a scholarship compared to the control group.
    What does this pattern of results suggest about the 
effectiveness of the OSP? As you mentioned, Mr. Chairman, the 
National Center for Educational Evaluation at the Institute of 
Education Sciences has released the results of 11 studies. As 
you mentioned, only 3 of those 11 show statistically 
significant gains in achievement like those we discovered 
through the D.C. Opportunity Scholarship Program evaluation.
    Several of the no-impact education programs have only been 
evaluated for 1 or 2 years and could show significant 
achievement impacts in subsequent reports. But the larger point 
is that many Federal education programs and State and local 
education programs targeted at disadvantaged students are now 
the subjects of rigorous evaluation. Most of these programs 
have yet to demonstrate the ability to move disadvantaged 
students to significantly higher levels of academic 
achievement. In my opinion, by demonstrating statistically 
significant impacts overall in reading in an experimental 
evaluation, the D.C. OSP has met a tough standard for efficacy 
in serving low-income, inner-city students.
    How large are the statistically significant reading gains 
observed in the OSP overall? The magnitude of the gains may lie 
in the eyes of the beholder. One constructive way to view 
achievement gains, however, is in terms of additional months of 
instruction.
    The overall gains from the OSP observed after 3 years mean 
that members of the control group, who represent what 
scholarship students would have experienced absent the program, 
would need to remain in school an extra 3.7 months on average 
to catch up to the level of reading achievement obtained by 
scholarship users. If you were to ask a group of low-income, 
inner-city parents if they would enroll their child in an 
education program that has demonstrated the ability to produce 
more than 3\1/2\ months of reading achievement gains, I suspect 
that most of them would say yes.
    The current rigorous evaluation of the D.C. Opportunity 
Scholarship Program has revealed much about the effects of 
voucher programs on participating students; however, more could 
be learned from the OSP, either through new data collection or 
even new analyses of what we have already obtained. The most 
important questions that remain include: First, what are the 
impacts of the program after 4 or 5 years of participation?
    The research team is collecting additional follow-up data 
from the students in the study. Analysis of those data will 
indicate if the reading impacts observed for the OSP students 
after 3 years grow, plateau, or fade, and will be an important 
topic of our final evaluation report planned for next spring.
    Second, does the OSP improve high school graduation and 
college enrollment rates? This was a point raised by Senator 
Voinovich and Tiffany in her testimony. Well, unlike many other 
scholarship programs, the OSP enrolled older students beyond 
grade 6. A modest number of these students are now old enough 
to be included in an analysis of the program's impact on high 
school graduation and college enrollment rates.
    Third, how do participating private schools differ from the 
public schools students would have attended? This was a 
question that was raised in the previous panel.
    The current evaluation is not the first rigorous study to 
find academic benefits for students who use vouchers, but none 
has been able to determine empirically why or how these impacts 
happen. We surveyed parents, students, and public and private 
school principals about various school characteristics, but 
have only begun to examine how these data relate to student 
voucher gains.
    Fourth, who participates in the OSP and who drops out? We 
could use the current evaluation data to explore what types of 
students initially applied to the program, how and why students 
moved in and out of scholarship use, and what program supports 
might encourage greater persistence in the program.
    Finally, does the OSP have any effect on racial integration 
in schools? Using the current evaluation data, we could examine 
if the students who participate in such programs end up better 
integrating both the schools they choose and the schools they 
leave.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Dr. Wolf. I agree it was less 
inspiring, but it was very important, and I thank you for that.
    We will do 7-minute question rounds.
    Let me just ask you first, Dr. Wolf, am I right to 
understand that the report you have given, which you issued 
last month, was based on the first 3 years of the program?
    Mr. Wolf. That is correct, Mr. Chairman. The program was 
not fully implemented until 2005, so we waited for those two 
cohorts to be enrolled and then studied them, each 3 years out.
    Chairman Lieberman. So this in a sense was an interim 
report. You are still under contract with the Department of 
Education to complete the 2 additional years. And that is the 
report you refer to that is expected in the spring of 2010.
    Mr. Wolf. Yes. Mr. Chairman, it will be one additional 
year, again, because we had 2 baseline years, and we will have 
4 outcome years.
    Chairman Lieberman. Right.
    So, to me, that in itself, unless what I call your interim 
3-year report showed terrible results, just on a rational 
basis, the fact that you are considering another year is reason 
not to terminate the program because, basically, it is calling 
it off before we have a complete report, and the partial report 
we have is encouraging.
    Let me go from that to understand.
    You use the term ``statistically significant.'' Just give 
us, as best you can, a layperson's understanding of what that 
means. Because as I look at this, there are advances--and these 
are the reading scores--but it did not get to be statistically 
significant until you got to year 3.\1\
---------------------------------------------------------------------------
    \1\ The chart referenced by Chairman Lieberman appears in the 
Appendix on page 78.
---------------------------------------------------------------------------
    Mr. Wolf. Sure, Mr. Chairman.
    When you compare different groups of students, which is 
essentially what we do in any analysis, we compare averages for 
the different groups, inevitably, a group is going to be 
somewhat different from another group. But many times those 
differences are small and are based on statistical sampling and 
imprecise data, and so, they cannot be embraced with any 
confidence.
    If you find, in effect, a difference that is statistically 
significant, what that says is it has passed a confidence 
threshold, where we can say this is not just noise or random 
variation; this is a true difference.
    Chairman Lieberman. So just going over to the math side, 
the blue lines suggest, therefore, not that the students you 
are assessing regressed. In fact, it appears from these lines, 
you correct me if I am wrong, that they made progress in math, 
but it did not reach a statistically significant level. Is that 
correct?
    Mr. Wolf. The average score for the voucher students in 
math is higher than the average score for the control group 
students in math, and it has been each year. But it is not so 
much different that we would attach statistical significance to 
it.
    Chairman Lieberman. But I think that is important as people 
try to dismiss the results and say, oh, the students who were 
part of the OSP program just did better in reading. Well, of 
course, reading is critically important; it was half of what 
you studied. But they also did better than the students who 
were not part of the OSP program in math. They just did not do 
better up to a statistically significant level.
    I am also struck by the comparison, the 11 other programs 
that you studied, and only three of those, including this one, 
had statistically significant improvements.
    Just give us a quick description, but you do not have to 
give names if you do not want to, of what other kinds of 
programs you studied that were not statistically significant.
    Mr. Wolf. Certainly, Mr. Chairman. Some of them were 
teacher training and induction programs.
    Chairman Lieberman. Right.
    Mr. Wolf. Professional development programs.
    Chairman Lieberman. These were all over the country, I take 
it.
    Mr. Wolf. Yes. These are various experimental programs 
around the country in which this rigorous model of experimental 
evaluation was applied. Some were specialized curriculum 
programs that they were piloting and evaluating. One was a 
student-to-student mentoring program that showed no 
statistically significant effects. So a variety of education 
interventions were among that group that did not show 
significant gains.
    Chairman Lieberman. And it is in that context, with that 
background, that you made the statement, ``The D.C. OSP has met 
a tough standard for efficacy in serving low-income, inner-city 
students.'' So of the various programs you have looked at 
nationally, you would say that the D.C. OSP is one of the most 
effective and, therefore, most encouraging.
    Mr. Wolf. Mr. Chairman, from what I have examined, that 
would be a correct characterization.
    Chairman Lieberman. Let me just ask you one final question 
and see if I can do this quickly.
    The treatment group, the group that you studied in the OSP 
program, includes students who were offered the voucher but 
never used it to attend private school. And the control group, 
the students who applied for vouchers but were not offered one, 
includes some students who nonetheless went to private or 
charter schools without the OSP voucher. They found some other 
way to go.
    Do I understand your study correctly to say that if you 
take into consideration both the students in the treatment 
group, the OSP group, that did not use the voucher and the 
students in the control group that went to private school with 
other resources, in fact, we see about a 5-month achievement 
gain? Is that correct?
    Mr. Wolf. Yes, Mr. Chairman, that is correct. And that is 
in the second comparison that you described, which accounts for 
scholarship non-users in the treatment group and private school 
attenders in the control group. That is contained in Appendix H 
of our report, and your characterization is accurate.
    Chairman Lieberman. Thanks.
    One question for you, Mr. Stewart, in the time I have left.
    I know some critics of this program argue that schools like 
Sidwell Friends School have the resources to fund students like 
those in the OSP program without a government-funded program. 
And I want to ask you whether, as the head of the school at 
Sidwell Friends School, you believe that the Opportunity 
Scholarship Program has in fact allowed you to admit students 
you otherwise would not admit and, therefore, to expand the 
diversity of your student body as you described that goal.
    Mr. Stewart. Absolutely. It is an expansion of the outreach 
that we can do because when we receive that $7,500 per child, 
for every three children we take, we can fund a fourth.
    Chairman Lieberman. Excellent. My time is up. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Wolf, I, too, want to explore the findings of your 
study in a little more depth. First, based on what I have read 
and what you have testified, it took 3 years before 
statistically significant gains were measured in reading.
    Do you believe that this finding reflects a need for a 
longer duration of the program before you start to see those 
gains or is it due to the fact that you may have had older 
students in the program rather than younger students, where 
gains in reading might be more significant? In other words, 
does it seem to be due to the demographics of the student 
population as this program is getting underway or does it tell 
us that the longer students are in this program, the more 
successful they are going to be?
    Mr. Wolf. Senator Collins, I think it is your second 
statement, your last statement there. I do not think the 
demographics, the fact that these students are moving to higher 
grades, explains why the statistically significant reading 
gains emerged in the third year. I think it is the logic of the 
intervention, of the school choice policy, which requires 
students to switch schools to initiate the process and adjust 
to a new environment.
    As Bruce Stewart explained, and some of the students 
explained, there can be a radically different environment of 
expectations and behaviors in their new school environment that 
they need to adjust to. There is a lot of reliable research 
suggesting that every time a student switches a school, they 
fall back somewhat in achievement. And so, here we have an 
education intervention that starts with a school switch and 
probably starts with a step back for most students. And so, it 
is likely to take more time for significant achievement gains 
to emerge under those circumstances.
    Senator Collins. Which is another reason for continuing the 
program to assess its impact because you are going to have that 
adjustment year, as you pointed out. And then once that 
adjustment time is over, it seems you start to see the gains.
    I do want to talk to you more about the difference between 
the reading scores and the math scores. Senator Lieberman 
brought out a very important point, which has been lost in some 
of the coverage of your report, that there were gains in math, 
but because they are not statistically significant at this 
point, we are not quite sure how to evaluate them.
    But beyond that, do you see a reason for the disparity in 
the gains in reading versus math?
    Mr. Wolf. Senator Collins, that is an excellent question, 
and at this point, I cannot give you a good answer to that 
question. There are many possibilities. Effective reading 
skills and reading instruction has been a very prominent topic 
in education circles in the last 5 or 6 years. And it may be 
that many of these private schools in the District taking in 
voucher students have focused on adopting a particularly 
effective approach to teaching reading. And so, there may have 
been more of an emphasis in reading instruction in the schools 
these students are attending relative to math instruction.
    That is one possibility. I do not have any firm evidence. 
We are surveying the schools about those sorts of matters in 
hopes of trying to discover if that is one of the elements. It 
may just be that their overall course of instruction is 
somewhat more effective, and we are just seeing the gains 
sooner in reading than in math, but I can only speculate on 
those things at this point.
    Senator Collins. Thank you.
    Mr. Williams, I would be remiss--and Senator Lieberman 
pointed out your Connecticut connection--if I did not inform 
everyone of your connections to the great State of Maine, since 
I recall the first time we met that you told me of going to 
Maine as a child. And I am sure that has been responsible for 
your future success. [Laughter.]
    So it was not just Yale, Mr. Chairman, that did that.
    Mr. Williams, you raised a really important point, and I 
remember very well the negotiations over the three-sector 
approach. Your point--and this is a very important point that 
we cannot forget--is that the agreement resulted in more money 
for D.C.'s public schools, for the traditional schools, and for 
the public charter schools, as well as for the D.C. Opportunity 
Scholarships. That is a critical point because a lot of the 
opponents of this program keep putting forth the false 
assertion that it is somehow robbing the public schools, and 
that is just not true.
    I have opposed many voucher programs because they did take 
money from public schools, but that is not the case here. You 
negotiated very well and were able to get new Federal funding 
for D.C.'s traditional public schools, for D.C.'s charter 
schools, and for the Opportunity Scholarship Program. And I 
think we cannot let that point go unremarked upon because it is 
absolutely critical.
    We want all of the District's children to succeed, every 
single one of them. But I do think that Ronald put it very well 
when he said that D.C. schools did not get bad overnight; they 
are not going to get well overnight. That was the best 
statement that he could have made.
    I would be very interested in your assessment of community 
support as a former mayor, as a D.C. citizen, back when you 
first started this program 5 years ago versus today. How would 
you evaluate the community support for continuing this program?
    Mr. Williams. Well, I would start out by saying that the 
great transportation secretary and congressman Norm Mineta said 
that his best job was mayor of San Jose. And he tells this 
story about when he was in the mayor's office, a lady came in 
the mayor's office and said, ``I want to speak to somebody, and 
I do not want to speak to anybody lower than the mayor.'' And 
he came out and he said, ``Ma'am, there is no one lower than 
the mayor.'' [Laughter.]
    So when you are the mayor, you really are right there on 
the griddle, and you kind of really know what people are 
saying. Everybody said, well, when you support the D.C. 
Opportunity Scholarship Program, you are going to be run out of 
town.
    I think that people in the District at the community level 
understood, one, that parents are working very hard, as I said 
earlier, under desperate conditions, to do the best by their 
child. Why not allow these mothers to do so? Especially when 
you are bringing in additional Federal money to help the 
charter schools and to help the public schools, especially 
when, if this program ended, it actually would be, as Senator 
Ensign indicated, a net impact not only on the public charter 
schools, but a double whammy on the public schools. And 
finally, especially when I think there was an understanding in 
the community that during my time as mayor, and Mayor Fenty has 
continued this, we put easily over 50 percent more into our 
school system in terms of funding.
    So this was not robbing Peter to pay Paul, as you say very 
well. This was about expanding choices for all the parents in 
all the different settings. And as the Chairman has said, not 
only benefiting the students but benefiting the schools as 
well.
    In our American democracy, when you can get 2,000 parents 
to come out on a not-so-beautiful work day to Freedom Plaza and 
demonstrate for this and generate 7,400 signatures, I think 
that says a lot.
    Senator Collins. It does indeed. I am going to have to 
leave at this point, but I wanted to thank all of the members 
of this panel and the previous panel. I have to say that I do 
not know how anyone who looks at the evidence and hears the 
testimony we have heard today could vote otherwise than to 
extend this important program. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins. 
Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    Dr. Wolf, you have done a lot of evaluations of these 
programs all over the country.
    Have you done anything in the Cleveland area?
    Mr. Wolf. Senator Voinovich, I have not personally been 
involved in an evaluation of the Cleveland Scholarship and 
Tutoring Program. I was involved in the evaluation of a voucher 
type Children's Scholarship Fund program in Dayton, Ohio, that 
showed significant achievement gains after 2 years for the 
students there in Dayton.
    Senator Voinovich. Well, this program has been in effect 
since 1996, and now it is just accepted. And we have between 
5,500 and 6,000 students that are participating in the program. 
And from everything I understand, it has just been very good. I 
mean, it is not spectacular, but in terms of comparing where 
these kids would be if they were not in this particular 
environment, they are just doing a whole lot better; dropout 
rate down, college attendance up.
    Senator Collins was talking about the math issue; there 
does not seem to be any improvement there.
    Have you looked at other places that have had a program, 
and have you seen where you have had improvement in both math 
and reading at the same time?
    Mr. Stewart, you might be able to comment on that. Why is 
there this discrepancy? Is it because maybe the teachers are 
not up to speed in terms of math? In other words, have you seen 
other programs around the country where you have seen the 
reading go up and the math scores also improve?
    Mr. Stewart. I think one of the most difficult issues we 
all face, as the data now suggests, is that in public schools 
most of the teaching faculty are coming from the bottom third, 
in terms of ranking of colleges and universities, and from the 
bottom third of their graduating classes. And many faculty are 
not trained well, and you will find very few schools who have 
people teaching mathematics who have a degree in mathematics. 
And that makes a significant difference in their capacity, I 
think, to instruct in the field.
    They may be able to do, in some manner, the mathematics at 
the level they are teaching, but they often have no sense of 
vision about where that ultimately needs to take students. I 
think it is much easier to find effective teachers in the 
humanities than it is in science and mathematics. Part of that 
is because we compete in an economy that greatly rewards those 
skills, and it appears it is going to increasingly reward them 
even at a greater level.
    My last comment would be that many of the phenomenal 
faculty that I started teaching with 50 years ago were women 
and persons of color because that was about the one 
professional place where most of them could work. And, today, 
all those people are now on the Supreme Court or in the Senate 
or doing other incredibly good things, which is just what they 
ought to be doing. But it has been at the expense of the 
quality of the person in the classroom in America's public 
schools, and that is a ``luxury'' we can not afford to see 
sustained. This country desperately needs its Hispanic and 
black young people, and certainly disadvantaged white young 
people, to get a better level of quality of education. And that 
means improving the quality of teaching.
    Safety in schools is a serious issue. We had the senator 
asking this morning about this program. Thirty-six young people 
in Chicago's school system, in this morning's paper, have been 
killed in this school year. That is not a safe environment. It 
is not a safe city. It is not a safe circumstance. We have to 
give much more careful attention to that issue.
    Mr. Wolf. Senator Voinovich, in the early days of the 
Milwaukee Voucher Program, which now enrolls 20,000 students, 
when it was a pilot program like the D.C. OSP, there were two 
experimental evaluations of the impacts of that voucher 
program. They both concluded there were clear gains in math 
from the program. One of the evaluations suggested that there 
were gains in reading as well, but the math gains were larger. 
The other evaluation only found impacts in math.
    Actually, that second evaluation was conducted by Cecilia 
Rouse, who is now on President Obama's Council of Economic 
Advisors. So she is one of the researchers who has conducted 
rigorous evaluations of school voucher programs and found 
achievement gains from those programs.
    Senator Voinovich. Well, it would be interesting to me to 
look at the quality of the education of people that are in the 
D.C. Opportunity Scholarship Program schools, where the kids 
were taking advantage of the scholarships, versus the 
educational background in the sciences of teachers in the 
regular public school system. That may be the answer, that 
there are not that many qualified math and science teachers, as 
you point out, that are around.
    One thing that we are doing, which I think is really good, 
is when the Rising Above the Gathering Storm report was issued, 
the National Science Foundation came out and basically said 
that we needed to do more in the science, technology, 
engineering, and mathematics (STEM) school area. And I think 
the District is taking that on, and that is happening all over 
the country. I mean, it is just amazing.
    We have a STEM school in Cleveland, and these kids are 
unbelievable. If they have the opportunity, they can shine. 
They can be stars. And right now, this little program is giving 
an opportunity for kids to shine and be stars, and to feel good 
about themselves and have a future. And why would you want to 
snuff out that light that is out there right now, particularly 
when we are trying to bring everybody along in the process?
    I think it is really important that people understand that 
we want the public school system to improve, and everybody is 
concerned about it. But I have to tell you, things were so bad 
in the Cleveland system that I was able to convince the 
legislature to go along with the scholarship program, and it 
was the only district that let us do it. The unions were 
opposed; the high school boards were opposed. And finally I 
said to the legislators, look, Cleveland is so bad that we have 
to try something else to see if we cannot make a difference. 
And that is when they allowed us to go forward with a program. 
And, by golly, it really has made a difference in the lives of 
those people that have participated in it.
    I hope the same thing for the other children in the public 
school system. We have a great superintendent right now. You 
have a great superintendent right here. But as we move along, 
let us not snuff out these opportunities that are out there for 
kids to really be somebody.
    Mr. Stewart. And she is a strong advocate for choice.
    Chairman Lieberman. Thanks, Senator Voinovich. Thanks for 
all you have done in this regard along the way. And, you are 
right, this does come down to individual lives and their 
ability to realize their God-given potential.
    Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for the opportunity to be part of this discussion. I want to 
speak about the District of Columbia private school voucher 
program and opportunities for educating the District's 
children. And my interest is that while in Hawaii, I was 
associated with the education program there, and of course, I 
support public education and the using and acquiring of 
sufficient funds for public schools.
    The District of Columbia public school system, as we know, 
has had a long history of failing its students and its 
community. And as a result of that, Mayor Williams, as was 
pointed out, and others introduced different programs. OSP came 
forward because of that failure and trying to improve the 
education of students in the District of Columbia. Mayor Fenty 
and Chancellor Rhee continue to do, I feel, a remarkable job in 
addressing those failures. But it is a long road, and we are on 
that road together.
    For me, a strong public education system is a cornerstone 
of a healthy and prosperous society. And it is our job to help 
the District provide that education to all of the District's 
students. I do want to note that I am very concerned about the 
students enrolled in this program and do not believe there 
should be something that forces them out of their school system 
at the present time.
    Mayor Williams, of the students who were eligible for 
scholarships, only 41 percent of those students used their 
scholarships consistently over the entire 3 years, and 25 
percent never used their scholarships.
    Some of the reasons that were cited were lack of available 
space in the private school, the private school did not offer 
programs for students with special needs, and lack of academic 
support for the child. You do advocate expansion of the voucher 
program.
    What resources do you believe should be provided to ensure 
that all students who want to participate in the program can 
participate?
    Mr. Williams. Senator, I would say first in response to the 
number of students who participate over time, when you look at 
the study in terms of parental satisfaction, it is very high. 
If you look at the number of spots that are available versus 
the number of applications, it shows a great demand for the 
program.
    I would say that at a minimum, we would like to see the 
program continued on the basis it was originally established. 
In other words, it was set for a certain period. I think there 
is another year or 2 years left. There would be a formal 
evaluation, and then on the basis of that evaluation, the 
Congress would act. And I think we ought to continue on that 
basis.
    I would certainly argue that it ought to be expanded. I 
would say that some of the indicia that you have indicated 
argue for actually expanding the program to support the 
schools. So in other words, to say the program does not work 
because the schools do not have enough money to satisfy all the 
students, this argues, I think, for additional funding, which I 
would certainly argue for here in front of you.
    But being realistic and practical, I would say what we are 
looking for here is just to continue the program on its 
original basis; do an evaluation. And we are confident that 
when you look at the merits, looking at real statistics and 
other indicia and other metrics, the program will be sustained.
    Senator Akaka. Mr. Wolf, the Institute of Education 
Sciences (IES) evaluation found that 25 percent of students who 
were offered a scholarship never used it and 19 percent of 
students who did not use the scholarships went to a public 
charter school instead.
    In your evaluation, were parents of students asked if they 
preferred public schools, private schools, or public charter 
schools? And if so, can you tell us why?
    Mr. Wolf. Senator Akaka, we are only following the families 
who applied for the program, and so they were all seeking an 
Opportunity Scholarship when they enrolled in the study. Those 
who declined to use their scholarship and went to charter 
schools and made other educational decisions, we still follow 
them in the study. We survey them and ask them, for example, 
why did you choose this school as opposed to using an 
Opportunity Scholarship, and they give the variety of responses 
that you mentioned. In some cases, families may have just found 
a public charter school that they feel better meets the 
educational needs of their child than what was available in the 
Opportunity Scholarship Program, and that is why they declined 
to use their scholarship.
    Senator Akaka. Mr. Stewart, Sidwell Friends School is an 
excellent place of learning, and I imagine, many parents would 
like their children to go there. There are approximately 1,700 
students in the D.C. Opportunity Scholarship Program.
    How many students from the OSP program have applied to your 
school and how many students has your school accepted?
    Mr. Stewart. We have accepted, I think, over the course of 
the program, five students, and we have accepted all that have 
applied. But they have been directed to us according to their 
background and preparation by the Washington Scholarship Fund, 
so we could have confidence that they were prepared. All they 
needed was terrific support, and they got it. However, I do not 
think it ever serves a child's interest to put him or her in a 
school situation which is not appropriate for their abilities 
and motivation. Certainly, we can take people and move them a 
great distance if they come with the right motivation and the 
right innate capacity, and we have.
    Senator Akaka. Thank you very much. Thank you for the 
response.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Mr. Chairman, thank you for the opportunity to speak about the 
District of Columbia private school voucher program and opportunities 
for educating the District's children. I want to take a moment to thank 
our witnesses for presenting testimony today. As a former educator and 
principal for the State of Hawaii, I passionately support public 
education and using public funds for public schools.
    The District of Columbia Public School (DCPS) system has a long 
history of failing its students and the community. Prior to the Fenty 
Administration, the system underwent five major reform efforts in 
twenty years with no tangible improvements in student achievement. Low 
test scores, poor management, and a lack of financial accountability 
were some of the school systems' failures and many of these remain a 
problem today.
    To address these problems, we need comprehensive solutions. The 
answer to public school reform cannot be diverting public funds to 
private school education. Instead, it is Congress's responsibility to 
provide support for the much harder job of reforming a failing public 
school system. That is why I opposed the creation of the D.C. 
Opportunity Scholarship Program (OSP), and I continue to have concerns 
with it.
    The program was designed to be a five-year pilot test program. 
Under the legislation, the Department of Education's Institute for 
Education Sciences (IES) was required to provide Congress with rigorous 
report on several critical areas of student achievement and 
environment.
    Today, OSP covers approximately 1,700 students, and the IES data 
show the program has had little impact on achievement. In the first two 
years, IES data did not show a positive impact on student achievement. 
The latest report shows a marginal impact on reading test scores for 
some students, but the report cautions that those findings may be a 
false discovery. Math scores remain unaffected. Most importantly, the 
study shows that students from schools in need of improvement--those 
who the program was designed to help--did not show improvement in 
reading or math.
    Only 41 percent of students offered the scholarships used them for 
the whole three years of the study. Parents indicated that a lack of 
academic support at private schools was the number one reason students 
dropped out of OSP. The study also found that although parents gave the 
private schools higher marks on school satisfaction and safety, the 
students enrolled in OSP did not.
    Voucher programs that allow a relatively small number of students 
to attend private schools distract attention from fixing public 
schools' failures. The challenge for public school systems is providing 
a high quality education for every child. Private schools are not 
required to admit every student regardless of his or her academic 
performance; they are not required to provide programs for students 
with special needs; and they are not accountable to the public.
    When Mayor Fenty took office more than two years ago, he made a 
commitment to change the school system. To address the failing school 
system, Congress enacted legislation to give the Mayor control of DCPS. 
He then appointed a Deputy Mayor for Education and a Chancellor to 
implement needed reforms. The work Chancellor Rhee and Mayor Fenty have 
done to reform the school system is remarkable.
    According to the DCPS annual progress report, elementary schools 
increased their reading scores by 8 percent and math proficiency by 11 
percent in the first year of the reforms. Secondary schools improved 
proficiency in reading and math by 9 percent. Significantly more 
schools are meeting Adequate Yearly Progress and fewer schools have 
exceptionally low proficiency rates.
    The school system is still not a portrait of perfection, and those 
reforms are not without controversy. Since the Mayor has taken control 
of the school system, I have held two hearings on the goals and 
progress of the school reform effort, and Senator Voinovich and I asked 
the Government Accountability Office (GAO) to conduct a short-term and 
long-term review of the reforms. Despite some criticism in GAO's 
initial assessment, DCPS appears to be on the right path to improving 
public education for the District's children. Later this summer, the 
second part of GAO's review will be released, and I look forward to 
seeing the progress made.
    Beyond the Mayor's school system reform effort, D.C. Public Charter 
Schools offer students an alternative choice in public education. 
Dozens of Charter Schools offering a broad range of focuses and 
perspectives have a robust presence in the District.
    Mr. Chairman, I believe we should be focusing our time, attention 
and resources on D.C.'s public schools. A strong public education 
system is the cornerstone of a healthy and prosperous society. Shifting 
public resources to private schools is not the solution.
    I should note that I do not think it is fair for students enrolled 
in the program to be forced out of their schools, because moving 
schools can be disruptive to students' educational and social 
development.
    I look forward to hearing from the witnesses today and finding a 
way forward that focuses our attention on reforming public education 
for all students in the District.

    Chairman Lieberman. Thank you, Senator Akaka.
    I think the time has come when we are going to have to 
close the hearing; we have other matters to go on to. I want to 
thank all of the people who testified today and all of the 
people who came out.
    I will say this for myself. And, again, I have been a 
supporter of this program, so I try to pull back and look at 
this dispassionately. And this morning, we have heard from a 
mother; two students; a former mayor who continues to be 
actively involved in this and close to people here in 
Washington, DC; the head of a major private school here that 
has accepted students as part of this program, providing what I 
would call anecdotal evidence, personal, experiential evidence, 
as to the value of the Opportunity Scholarship Program.
    Then we have Dr. Wolf, who did a very comprehensive, 
rigorous investigation of the actual results of the program, 
and they show positive results. They give no basis for 
terminating the program. You could say that I wish they had 
done a little better in math, but there are statistically 
significant improvements in the students in the District who 
are a part of this program as compared to students in the 
public schools, and a very high level of parental satisfaction 
with the Opportunity Scholarship Program, which clearly says 
something.
    So I must say, based on the anecdotal and scientific 
evidence presented to the Committee this morning, I just do not 
think there is a rational reason to terminate this program. 
There is just not an acceptable reason to terminate the 
program. And I really challenge those who are acting to 
terminate it and, in fact, to put that provision into the 
Omnibus Appropriations Bill in Conference Committee to come 
forward and explain why they want to do it. Otherwise, people 
are left with a conclusion that in a critically important area 
of American life--it is hard to find one more critical, really, 
to our future than education--we have a program here, an 
experiment, that is giving some of our poorest children an 
opportunity to show what they can do, and they are doing it. 
And that is great for them, and that is great for our country.
    So I find the sum total of this evidence to be very 
powerfully in favor of continuing the D.C. Opportunity 
Scholarship Program. I am going to try to take this evidence to 
all of our colleagues and challenge them, as I just said. The 
next step, for the information of those who are here, is that 
we will go to Senator Reid, the Senate Majority Leader, and say 
to him, we are ready to bring a bill to the floor to have a 
debate on it, as you promised on the D.C. Voting Rights Act.
    Somebody asked me during the recess when we went out to 
vote, what are the prospects? And I said, I am not kidding 
myself. There are some powerful forces allied against this 
program, but we happen to have the facts on our side. We also 
happen to have justice on our side.
    Mr. Stewart. We do.
    Chairman Lieberman. But we have the facts on our side. 
Therefore, I would say we have a fighting chance. And, by God, 
together we are going to fight to keep this program doing.
    I want to say to everybody as a matter of course that we 
will keep the record of the hearing open for 15 days for any 
additional statements or questions that the witnesses or 
Members of the Committee may have. But my thanks to all who 
took the time to be here and to all of you who have helped to 
build and sustain this program. It has been a very important 
morning. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:47 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
